<html>
<title> - DEFENDING AGAINST BIOTERRORISM: HOW VULNERABLE IS AMERICA?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]









       DEFENDING AGAINST BIOTERRORISM: HOW VULNERABLE IS AMERICA?

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 3, 2015

                               __________

                           Serial No. 114-41

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                           __________
                           
                           
                         U.S. GOVERNMENT PUBLISHING OFFICE 

99-747 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                         
                           
                           
                           
                           
                           
   
   
   
   
   
   
   
   
                           

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                
                
                
                
                
                
                
                
                
                
                
                
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6

                               Witnesses

Hon. Thomas J. Ridge, Co-Chair, Blue Ribbon Study Panel on 
  Biodefense:
  Oral Statement.................................................     7
  Joint Prepared Statement.......................................    10
Hon. Joseph I. Lieberman, Co-Chair, Blue Ribbon Study Panel on 
  Biodefense:
  Oral Statement.................................................    14
  Joint Prepared Statement.......................................    10
Mr. Leonard A. Cole, Ph.D., Director, Terror Medicine and 
  Security Program, Department of Emergency Medicine, Rutgers New 
  Jersey Medical School:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19
 
       DEFENDING AGAINST BIOTERRORISM: HOW VULNERABLE IS AMERICA?

                              ----------                              


                       Tuesday, November 3, 2015

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:12 a.m., in Room 
311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the committee] presiding.
    Present: Representatives McCaul, Smith, King, Duncan, 
Barletta, Perry, Clawson, Katko, Hurd, Carter, Walker, McSally, 
Ratcliffe, Donovan, Thompson, Langevin, Higgins, Keating, 
Payne, Vela, Watson Coleman, and Torres.
    Chairman McCaul. The Committee on Homeland Security will 
come to order.
    The committee is meeting today to examine the findings of 
the Blue Ribbon Study Panel on Biodefense and their recently-
released report. Former Senator Lieberman and former Governor 
Ridge, the panel's co-chairs, will update committee Members on 
the panel's work and the state of the United States biosecurity 
leadership and programs, including recommendations for 
improving our biodefense posture.
    I now recognize myself for an opening statement.
    I want to welcome Senator Lieberman and Governor Ridge back 
to the committee. You have worked very well together in a 
bipartisan way, and we certainly appreciate your service, both 
the past and present service, to our Nation. Thank you so much 
for being here.
    Particularly on this issue of biodefense, the threat from 
weapons of mass destruction may have faded from public view 
since 9/11, but the dangers have not diminished, and terrorists 
in rogue states are as committed as ever to obtaining weapons-
of-mass-destruction capabilities to intimidate our people and 
to inflict unspeakable harm.
    Unfortunately, our level of readiness has not kept pace 
with the growing risk. Last year, the Ebola crisis showed us 
that we are not fully prepared to confront biological threats. 
We learned that the Federal Government did not have the systems 
in place to address the situation and lacked clear lines of 
authority. We learned that many front-line health care workers 
did not have the skills or basic training needed. We learned 
that officials lacked a plan for communicating the Government's 
response to the public, including reassuring the American 
people that it could keep the contagion from spreading through 
international air travel. Fortunately, we kept the virus from 
spreading, but there were important lessons to be learned.
    We know that terrorists are still set on obtaining WMD 
devices to use in their attacks. We have seen groups like ISIS 
use makeshift chemical weapons on the battlefield and boast 
about plans to smuggle radiological material into the United 
States. With recent FBI stings in places like Moldova, we know 
that there are sellers ready to supply the ingredients for the 
tools of terror.
    Bioterrorism is especially alarming. Technological advances 
have put dangerous biological agents within reach of extremist 
groups--capabilities that were previously available only to 
nation-states. We also know there is no shortage of enemies who 
would seek to bring WMD devices into our country if they had 
the opportunity.
    At our recent world-wide threats hearing, FBI Director 
James Comey indicated the potential smuggling of a weapon of 
mass destruction into the Western Hemisphere and, in his 
opinion, called it a very serious threat. That is why we must 
take the recommendations of Senator Lieberman and Governor 
Ridge very seriously.
    Over the course of the past year, their study panel hosted 
a number of meetings to address the full spectrum of the 
bioterror threat, and their final report provides a thorough 
review of the challenges we face on that front. It makes 33 
recommendations on a number of topics, including leadership, 
strategy, intelligence gathering and dissemination, medical 
countermeasures, and response.
    It comes as no surprise to me that one of your main 
findings is the lack of Federal leadership and coordination at 
the highest level of the Executive branch. With a dozen 
agencies playing a role in the biodefense space, we must have a 
senior individual coordinating these efforts. Indeed, one of 
the main questions I asked during the Ebola response was, ``Who 
was in charge?'' Unfortunately, that would still be an open 
question today.
    That is why I have advocated for the reinstatement of the 
Special Assistant to the President for Biodefense. Your report 
calls for the designation of the Vice President as the 
responsible official, along with the development of a White 
House biodefense coordination council. I look forward to 
discussing this recommendation and why you believe the Vice 
President would be in the best position to address this threat.
    We are also interested in your assessment of the 
responsibilities of the Department of Homeland Security in this 
space. The report highlights shortcomings of the Department's 
biological surveillance and detection efforts through the 
National Biosurveillance Integration System and BioWatch 
Program.
    The committee shares your concerns and has a long history 
of conducting oversight on NBIS and BioWatch. In fact, the 
Emergency Preparedness Subcommittee, after holding a hearing on 
the bioterrorism threat earlier this year, is planning an 
additional hearing on biosurveillance and detection later this 
year.
    The committee is currently considering the Department's 
proposal to consolidate a number of its WMD functions into a 
new CBRNE office. Your argument about the need for leadership 
and coordination for biodefense also rings true for chemical, 
radiological, nuclear, and explosive activities. This is a 
priority for Secretary Johnson, and I believe that 
consolidating the various offices within the Department with 
responsibility for CBRNE will elevate the mission and fix a 
broken bureaucracy so that we can keep our Nation safe.
    Finally, I would be remiss if I didn't highlight your 
discussion of the fragmented Congressional jurisdiction for 
homeland security oversight. Ranking Member Thompson and I 
share this, and Chairman King before me, have repeatedly called 
for the consolidation of Congressional jurisdiction. We will 
make a proposed rule change in the next Congress, and I hope 
you will join us in this effort to fix this once and for all. 
It is the only 9/11 recommendation that has yet to be 
fulfilled, and shame on the Congress for not doing that.
    I will continue to work on this issue with the new Speaker 
to ensure Congress can address some of the oversight challenges 
you discuss in the report.
    Hearings like this give us a better sense of what we are up 
against and how we can make sure our agencies are prepared to 
keep WMD threats from reaching our shores and respond to them 
decisively if they do. We certainly appreciate all the hard 
work that you have done and commitment to the challenges we 
face and your service to our great Nation.
    With that, the Chair now recognizes the Ranking Member.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
    I want to welcome Senator Lieberman and Governor Ridge back to the 
committee. I commend you both for your continuing public service and 
your efforts to protect our Nation--particularly on the issue of 
biodefense.
    The threat from weapons of mass destruction may have faded from 
public view since 9/11, but the dangers have not diminished.
    Terrorists and rogue states are as committed as ever to obtaining 
WMD capabilities to intimidate our people and to inflict unspeakable 
harm. Unfortunately, our level of readiness has not kept pace with the 
growing risk.
    Last year the Ebola crisis showed us that we are not fully prepared 
to confront biological threats. We learned that the Federal Government 
did not have the systems in place to address the situation and lacked 
clear lines of authority. We learned that many front-line health care 
workers did not have the skills or basic training needed.
    We learned that officials lacked a plan for communicating the 
Government's response to the public, including reassuring the American 
people that it could keep the contagion from spreading through 
international air travel. Fortunately, we kept the virus from 
spreading, but there were important lessons to be learned.
    We know that terrorists are still dead-set on obtaining WMD devices 
to use in their attacks. We have seen groups like ISIS use makeshift 
chemical weapons on the battlefield and boast about plans to smuggle 
radiological material into the United States. And with recent FBI 
stings in places like Moldova, we know that there are sellers ready to 
supply the ingredients for these tools of terror. Bioterrorism is 
especially alarming. Technological advances have put dangerous 
biological agents within reach of extremist groups--capabilities that 
were previously available only to nation-states.
    We also know there is no shortage of enemies who would seek to 
bring WMD devices into our country if they had the opportunity.
    At our recent world-wide threats hearing, FBI Director James Comey 
indicated that the potential smuggling of a weapon of mass destruction 
into the Western Hemisphere is, in his opinion, a ``very serious 
threat.''
    That is why we must take the recommendations of Senator Lieberman 
and Governor Ridge very seriously.
    Over the course of the past year, their Study Panel hosted a number 
of meetings to address the full spectrum of the bioterror threat, and 
their final report provides a thorough review of the challenges we face 
on that front. It makes 33 recommendations on a number of topics 
including leadership, strategy, intelligence gathering and 
dissemination, medical countermeasures, and response.
    It comes as no surprise to me that one of your main findings is the 
lack of Federal leadership and coordination at the highest level of the 
Executive branch. With a dozen agencies playing a role in the 
biodefense space, we must have a senior individual coordinating these 
efforts. Indeed, one of the main questions I asked during the Ebola 
response was ``Who is in charge?'' Unfortunately, that would still be 
an open question today.
    That is why I have advocated for the reinstatement of the Special 
Assistant to the President for Biodefense. Your report calls for the 
designation of the Vice President as the responsible official, along 
with the development of a White House Biodefense Coordination Council.
    I look forward to discussing this recommendation and why you 
believe the Vice President would be in the best position to address 
this threat.
    We are also particularly interested in your assessment of the 
responsibilities of the Department of Homeland Security in this space.
    The report highlights shortcomings of the Department's biological 
surveillance and detection efforts through the National Biosurveillance 
Integration System (NBIS) and the BioWatch Program. The committee 
shares your concerns and has a long history of conducting oversight of 
NBIS and BioWatch.
    In fact, the Emergency Preparedness Subcommittee, after holding a 
hearing on the bioterrorism threat earlier this year, is planning 
additional hearings on biosurveillance and detection later this year.
    The committee is currently considering the Department's proposal to 
consolidate a number of its WMD functions into a new CBRNE office.
    Your argument about the need for leadership and coordination for 
biodefense also rings true for chemical, radiological, nuclear, and 
explosives activities. This is a priority for Secretary Johnson, and I 
believe that by consolidating the various offices within the Department 
with responsibility for CBRNE, we will elevate the mission and fix a 
broken bureaucracy so that we can keep our Nation safe.
    Finally, I'd be remiss if I didn't highlight your discussion of the 
fragmented Congressional jurisdiction for homeland security oversight. 
Ranking Member Thompson and I, and Chairman King before me, have 
repeatedly called for the consolidation of Congressional jurisdiction.
    I will continue to work on this issue with the new Speaker to 
ensure Congress can address some of the oversight challenges you 
discuss in the report.
    Hearings like this give us a better sense of what we're up 
against--and how we can make sure our agencies are prepared to keep WMD 
threats from reaching our shores and respond to them decisively if they 
do.
    We appreciate the work of your panel, and you have my commitment 
that this committee will do its part to address these challenges 
through further oversight and legislation.

    Mr. Thompson. Thank you very much, Mr. Chairman. I would 
like to thank you for holding today's hearing. I am pleased 
that our committee regularly conducts oversight of Federal 
biodefense efforts even when we are not responding to an active 
crisis.
    I would also like to welcome our three panelists--Senator 
Lieberman, Governor Ridge, and Dr. Cole--back to the committee.
    The release of the Blue Ribbon Study Panel report this 
month is timely. One year ago, well after the Ebola virus was 
determined to be a material threat, a U.S. hospital diagnosed a 
case for the first time. Although the Ebola case was ultimately 
contained, the Ebola case has revealed gaps in our Federal 
biodefense infrastructure that we have known about for decades 
but have not meaningfully addressed.
    Most notably, we focused on determining who is in charge. 
Leadership appears to shift from personnel at the White House 
to the Centers for Disease Control to the National Institutes 
of Health. Nearly 1 month after the first Ebola case was 
diagnosed, the administration appointed an Ebola czar, despite 
the facts that HSPD-5, HSPD-10, the National Response 
Framework, and the Pandemic and All Hazards Preparedness Act 
all provided relevant leadership structures that could have 
been activated at any point.
    We should not reinvent the wheel every time there is a 
crisis, and we should not put biodefense on the back burner 
between outbreaks or attacks. Progress takes persistence and 
leadership. So, although I have some questions about the 
particular structure proposed by the Blue Ribbon Panel, I was 
pleased that the report's first several recommendations 
addressed the biodefense leadership vacuum and a need for 
improved coordination.
    The Chair already spoke about his concern, also, about the 
recommendation on the Vice President assuming a leadership role 
in that, and I think we need to flesh that out a little bit. I 
look forward to the discussion.
    But I also look forward to discussing your proposals to 
address our biodefense leadership gap further and to better 
understand how you envision the Department of Homeland 
Security's role in this space.
    As you are aware, for various reasons, DHS has struggled to 
carry out its biodefense program. The Government Accountability 
Office recently issued a report critical of DHS's signature 
biosurveillance program, the National Biosurveillance 
Integration Center. We have learned that, despite DHS's efforts 
to build NBIC's ability to identify bio events early, it lacks 
the funding and data access necessary to carry out that 
mission. The Blue Ribbon Panel report echoes many of GAO's 
criticisms.
    DHS's biodetection program, BioWatch, has been similarly 
criticized. In 2001, the National Academy of Sciences described 
the circumstances under which the currently deployed BioWatch 
technology would be useful as follows: If a large-scale aerosol 
attack occurs where BioWatch is deployed; if an air sampler 
lies in the path of the release; and if the pathogen used is 
one of those included in the BioWatch laboratory assays.
    In April 2014, after years of cost overruns and delays, DHS 
decided to cancel the acquisition of BioWatch Gen-3 after a GAO 
report revealed fundamental flaws in the acquisition. The 
panel's report identified similar challenges with the currently 
deployed BioWatch system and the urgent need for better 
technology.
    In light of these findings, I would be interested in the 
witnesses' thoughts on how DHS can address the challenges it 
had experienced in the biodefense mission space and how its 
potential can be better developed and leveraged.
    Additionally, the Ebola cases last year reminded us that 
our local EMS providers and hospitals are our boots on the 
ground during a biodefense incident. Unfortunately, hospital 
preparedness for a biological event is not consistent across 
the country. I would be interested to understand how the 
recommendations in this report address that problem and to 
learn how hospitals and the medical community are working to 
improve hospital preparedness.
    Finally, I would be remiss if I did not acknowledge 
Congress' role in the failure to make meaningful progress to 
address biodefense challenges. Former committee Member 
Congressman Pascrell and former Chairman King have introduced 
the WMD Prevention and Preparedness Act, which would implement 
many recommendations made by past commissions studying our 
biodefense gaps, three times--maybe, Mr. King, we might can get 
some attention at some point on that--and, unfortunately, this 
bill has never been enacted.
    We must do better. I am eager to explore each of the 
panelists' recommendations and determine what makes sense to 
implement.
    I thank the witnesses again for being here today, and I 
look forward to their testimony.
    I yield back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                            November 3, 2015
    I am pleased that our committee regularly conducts oversight of 
Federal biodefense efforts--even when we are not responding to an 
active crisis. The release of the Blue Ribbon Study Panel's report this 
month is timely. One year ago--well after the Ebola virus was 
determined to be a material threat--a U.S. hospital diagnosed a case 
for the first time.
    Although the Ebola cases were ultimately contained, the Ebola cases 
revealed gaps in our Federal biodefense infrastructure that we have 
known about for decades but have not meaningfully addressed. Most 
notably, we focused on determining who is in charge.
    Leadership appeared to shift from personnel at the White House to 
the Centers for Disease Control to the National Institutes of Health. 
Nearly 1 month after the first Ebola case was diagnosed, the 
administration appointed an Ebola Czar, despite the fact that HSPD-5, 
HSPD-10, the National Response Framework, and the Pandemic All-Hazards 
Preparedness Act all provide relevant leadership structures that could 
have been activated at any point.
    We should not reinvent the wheel every time there is a crisis, and 
we should not put biodefense on the backburner between outbreaks or 
attacks. Progress takes persistence and leadership.
    So, although I have some questions about the particular structure 
proposed by the Blue Ribbon Panel, I was pleased that the report's 
first several recommendations addressed the biodefense leadership 
vacuum and need for improved coordination.
    I look forward to discussing your proposals to address our 
biodefense leadership gap further and to better understand how you 
envision the Department of Homeland Security's role in this space. As 
you are aware, for various reasons, DHS has struggled to carry out its 
biodefense programs.
    The Government Accountability Office recently issued a report 
critical of DHS's signature biosurveillance program, the National 
Biosurveillance Integration Center. We have learned that despite DHS's 
efforts to build NBIC's ability to identify bio-events early, it lacks 
the funding and data access necessary to carry out that mission.
    The Blue Ribbon Panel Report echoes many of GAO's criticisms. DHS's 
biodetection program--BioWatch--has been similarly criticized. In 2011, 
the National Academy of Sciences described the circumstances under 
which the currently-deployed BioWatch technology would be useful as 
follows: ``if a large-scale aerosol attack occurs where BioWatch is 
deployed, if an air sampler lies in the path of the release, and if the 
pathogen used is one of those included in the BioWatch laboratory 
assays.''
    In April 2014, after years of cost overruns and delays, DHS decided 
to cancel the acquisition of BioWatch Gen-3 after a GAO report revealed 
fundamental flaws in the acquisition.
    The panel's report identified similar challenges with the 
currently-deployed BioWatch system and the urgent need for better 
technology. In light of these findings, I will be interested in the 
witnesses' thoughts on how DHS can address the challenges it has 
experienced in the biodefense mission space, and how its potential can 
be better developed and leveraged.
    Additionally, the Ebola cases last year reminded us that our local 
EMS providers and hospitals are our boots on the ground during a 
biodefense incident. Unfortunately, hospital preparedness for 
biological event is not consistent across the country.
    I will be interested to understand how the recommendations in this 
report address that problem and to learn how hospitals and the medical 
community are working to improve hospital preparedness.
    Finally, I would be remiss if I did not acknowledge Congress' role 
in the failure to make meaningful progress to address biodefense 
challenges. Former Committee Member, Congressman Pascrell and former 
Chairman King have introduced the WMD Prevention and Preparedness Act, 
which would implement many recommendations made by past Commissions 
studying our biodefense gaps, three times. Unfortunately, the bill has 
never been enacted. We must do better, and I am eager to explore each 
of the Panel's recommendations and determine what makes sense to 
implement.

    Chairman McCaul. I thank the Ranking Member.
    Other Members are reminded that opening statements may be 
submitted for the record.
    We are pleased to have a distinguished panel of witnesses 
before us here today on this important topic.
    First, the Honorable Thomas Ridge currently serves as chief 
executive officer of Ridge Global, an international security 
and risk management advisory firm. Previously, Secretary Ridge 
served as the first Assistant to the President for Homeland 
Security following the events of 9/11 and the first Secretary 
of the U.S. Department of Homeland Security.
    Next, Mr. Joseph Lieberman currently serves as a senior 
counsel at the New York law firm of Kasowitz Benson Torres & 
Friedman. Previously, he served as a Member of the United 
States Senate from Connecticut for 24 years.
    That is quite an accomplishment, as we sit here looking out 
today.
    While in the Senate, Mr. Lieberman served as the Chairman 
of the Senate Homeland Security and Governmental Affairs 
Committee and as a Member of the Armed Services Committee.
    Thank both of you for your service to the country.
    Finally, Dr. Leonard Cole serves as an adjunct professor at 
Rutgers New Jersey Medical School and Rutgers University--
Newark. An expert on bioterrorism and terror medicine, he is 
also the director of the Program on Terror Medicine and 
Security at Rutgers New Jersey Medical School.
    I want to thank the witnesses for being here today. Your 
full statements will appear in the record.
    The Chair now recognizes Secretary Ridge for an open 
statement.

STATEMENT OF HON. THOMAS J. RIDGE, CO-CHAIR, BLUE RIBBON STUDY 
                      PANEL ON BIODEFENSE

    Mr. Ridge. Well, good morning, Chairman McCaul, Ranking 
Member Thompson, ladies and gentlemen, Members of the 
committee.
    First of all, I want to thank you for the opportunity to 
appear before you, particularly with my friend and colleague 
Senator Lieberman and such a distinguished academic as Dr. 
Cole. I am grateful for the opportunity.
    I realize you have read the report. I am not going to go 
itemize the recommendations, but I would like to highlight some 
of those that we think are critically important.
    Together, the recommendations address the entire spectrum 
of biodefense activities: Prevention, deterrence, preparedness, 
detection, response, attribution, recovery, and mitigation. As 
you know, we also include about 100 specific action items 
associated with these. They address programs, legislation, and 
policy. In the 
short-, mid-, and long-term, we want to make perfectly clear 
who should execute each item that we recommend, exactly what 
they should do, and in what time frame they should do it.
    Let me highlight several of our recommendations.
    First is leadership. Our first recommendation is to 
centralize leadership at the highest level of Government in the 
person of the Vice President of United States.
    We have multiple Federal departments and agencies and well-
intentioned efforts addressing very specific aspects of 
biodefense, and it is our opinion that they need more than 
someone in the White House simply trying to achieve consensus 
among them. I can speak to that from personal experience. It 
may not be a difficult task; it may be nearly impossible.
    These departments and agencies need centralized leadership 
from someone with the imprimatur of the President in a position 
that remains in place--it is permanent--regardless of changes 
in personalities or, frankly, regardless of the party in power.
    The Vice President needs some tools to ensure effective and 
cohesive biodefense for this country. One of those tools is a 
budget. We recommend unifying the budget for biodefense and 
giving the Vice President authority over it. The members of the 
Executive branch must put forward budgets for programs that 
make sense as part of the entire biodefense infrastructure, not 
just what each individual department and agency thinks they 
should be doing.
    The Vice President needs another tool; that is a 
comprehensive biodefense strategy. There are too many 
biodefense strategy and policy documents lying around in this 
town. There are too many to be useful in guiding and achieving 
an integrated, cohesive National biodefense infrastructure. We 
recommend that the White House develop a National biodefense 
strategy for the United States of America and that the Vice 
President make this a top priority.
    In addition, after the White House creates the strategy, 
obviously, they need to develop an implementation plan. We make 
specific recommendations in that regard and suggest the last 
tool the Vice President needs is a biodefense coordination 
council.
    It needs participation from both Federal and non-Federal 
stakeholders. We are of the opinion that you cannot build the 
most effective biodefense infrastructure if you think it can be 
done inside the Beltway. We can't protect the country--as well-
intentioned as many programs are, you need Federal and non-
Federal, State, local, academic, and private-sector engagement 
in this effort.
    I know this committee is particularly interested in 
biosurveillance and biodetection. We recognized years ago that 
having multiple surveillance systems did not mean much if the 
data could not be integrated and could not produce information 
useful for making real-time decisions. We also recognize the 
need for early detection.
    The DHS has made only limited progress with BioWatch and 
the National Biosurveillance Integration System, or NBIS, and 
at a great expense. We recommend that either we make these 
effective tools or we replace them. DOD and NASA, among others, 
have fielded more advanced bio-detectors. DHS has implemented 
some biosurveillance pilots at the State level, and we are 
advised that they are working far better than what the 
Department has attempted at the National level. We do not 
recommend continuing on with BioWatch and NBIS the way they are 
presently constructed.
    Obviously, once you detect a biological event, you are 
going to have to respond, and medical countermeasures will be 
among the most important elements of that response. We think 
there are far, far too many bureaucratic hurdles in order to 
get a contract developed and initiatives undertaken to begin to 
develop countermeasures.
    We also think that it is ripe for the opportunity to build 
a different kind of public-private partnership in working with 
industries to develop incentives to develop, in a cost-
effective way, medical countermeasures. Not everything has to 
cost money. We think HHS leadership should return contracting 
authority to the director of the Biomedical Advanced Research 
and Development Authority, or BARDA. We also think the 
Government can save money by developing incentives together 
with the industry.
    We also know that--and I am a little over my time, so let 
me just conclude very briefly.
    We like the notion, the paradigm of One Health. We don't 
think there has been enough emphasis paid on the connectivity 
between zoonotic diseases and the pathogens about which we are 
most concerned. We think that understanding the integration of 
the capabilities we have, whether it is biosurveillance and the 
authorities and the capabilities we have to respond and recover 
from these pathogens, and the relationship between animal 
disease and health disease is critically important for us to 
have a comprehensive integrated system.
    We also recommend addressing intelligence collection, 
attribution, a select agent program, et cetera, et cetera.
    Finally, let me comment, Mr. Chairman, on something that 
you said, and Senator Lieberman and I looked at each other and 
smiled.
    As former Secretary of the Department of Homeland Security, 
I had 108 committees and subcommittees to report to. I spent 
more time on the Hill than the Secretary of Defense did, and he 
had two wars going on in Afghanistan and Iraq.
    Now, the proliferation of committees and subcommittees over 
the biodefense domain isn't as significant, but anything that 
this committee and the leadership--and calling on both the 
House and Senate, Republican and Democrat leadership--to 
narrow--to narrow the aperture of responsibility and 
accountability, not only for DHS, particularly around 
biodefense, we would welcome. One of the interesting appendices 
in this report, it will show you the multiple jurisdictions 
over very specific items of biodefense.
    So I would conclude by simply saying there are a lot of 
well-intentioned programs--I mean, there are 25 laws and 
Presidential directives and treaties dealing with biodefense. 
You have a multiplicity of organizations. Every department 
asks, and justifiably so, for more money for their specific 
enterprise. But, ultimately, if we are serious about 
biodefense, an integrative, comprehensive approach, with 
somebody having budget authority located in the White House, 
preferably right next to the President of the United States, we 
think maximizes our ability to deal with the threat. It is not 
like the threat--the threat already exists; it is how we are 
prepared to respond and recover from it.
    I thank the committee for the opportunity to share these 
thoughts with you this morning.
    [The joint prepared statement of Mr. Ridge and Mr. 
Lieberman follows:]
  Joint Prepared Statement of Hon. Thomas J. Ridge and Hon. Joseph I. 
                               Lieberman
                            November 3, 2015
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee: Thank you for inviting us here to provide the perspective 
and recommendations of the bipartisan Blue Ribbon Study Panel on 
Biodefense. On behalf of our colleagues on the panel--former Secretary 
Donna Shalala, former Senate Majority Leader Tom Daschle, former 
Representative Jim Greenwood, and former Homeland Security Advisor Ken 
Wainstein--we present the findings, concerns, and determined optimism 
of our group.
    As you know, we both have addressed homeland security in various 
capacities for many years. Senator Lieberman served 24 years in the 
United States Senate, where he spent 6 years as Chairman of the Senate 
Committee on Homeland Security and Governmental Affairs. Governor Ridge 
was the Nation's first Secretary of Homeland Security and served 6 
terms in the United States House of Representatives. Although we have 
left Government, we remain committed to public service and concerned 
about the challenges our homeland faces. The biological threat is among 
our greatest concerns. We know that many have undertaken good work to 
address this threat, but that we have still not achieved what we 
potentially could in this regard.
    The Federal Government and its public and private-sector partners 
began strengthening National biodefense before the anthrax attacks of 
2001 (14 years ago this month), they redoubled their efforts 
thereafter. As we are sure you recall, letters containing anthrax 
spores were sent to the Hart Senate Office building (shutting it down 
for 3 months) and elsewhere throughout the East Coast. Anthrax killed 5 
Americans, sickened 17 more, reduced business productivity, and cost 
the Nation a great deal in terms of money, time, impact on Government 
operations, and our sense of security.
    Yet today, the United States is not taking the biological threat 
seriously enough and therefore, the Nation is not ready to deal with a 
biological event. Most recently, the Commission on the Prevention of 
Weapons of Mass Destruction Proliferation and Terrorism (WMD 
Commission) raised the issue 7 years ago, but others preceded them--the 
Commission on the Intelligence Capabilities of the United States 
Regarding Weapons of Mass Destruction raised it 10 years ago, the 
National Commission on Terrorist Attacks upon the United States raised 
it 11 years ago, and the U.S. Commission on National Security/21st 
Century raised 14 years ago.
    In 2008, Senators Bob Graham and Jim Talent presented the findings 
of the WMD Commission to the Senate. Senator Talent also testified to 
this committee as to the seriousness of the biological threat in 2010 
and again in 2011 as you considered legislation to implement the 
Commission's recommendations. They believed that by the end of 2013, it 
was more likely than not that terrorists would use a weapon of mass 
destruction in a terrorist attack. They were proven correct when Bashar 
al-Assad deployed chemical weapons on the Syrian people in 2013. Their 
grave concerns regarding the biological threat were also well-founded 
and we should assume that they could come to fruition.
    With this in mind, we began our work with the Panel by posting two 
questions: (1) Is the United States still vulnerable to the same 
weaknesses in biodefense that Senators Graham and Talent found in 2008; 
and (2) what are we doing to heed their advice--and that of the 
esteemed panels before them--to take decisive action to strengthen our 
National biodefense?
    Beginning last year, we held four public meetings to help answer 
these questions. At these meetings, we spoke with more than 60 experts, 
including current and former lawmakers and Federal officials, local 
health department representatives, emergency service providers, 
academicians, business leaders, and thought leaders. Their input, along 
with significant additional research, enabled us to scrutinize the 
status of those activities deemed necessary for biodefense by both 
Republican and Democratic administrations, and many policy experts--
prevention, deterrence, preparedness, detection, response, attribution, 
recovery, and mitigation.
    Our efforts to examine National defense against intentionally-
introduced, accidentally-released, and naturally-occurring biological 
threats culminated in our bipartisan report, ``A National Blueprint for 
Biodefense: Major Reform Needed to Optimize Efforts.'' We thank you for 
the opportunity to present our findings and recommendations and discuss 
them with you today.
    We found both substantial achievements and serious gaps in our 
capacity to defend against major biological events, gaps that create 
vulnerabilities to the homeland. We also found that our preparedness is 
inversely proportional to how catastrophic consequences could be. We 
believe that the root cause of this vulnerability is the lack of strong 
centralized leadership at the highest level of Government. No one 
person has the charge and authority to take the dozen departments and 
agencies responsible for some aspect of biodefense and from them create 
a cohesive, effective, and efficient whole. The last three Presidents 
appointed a Special Assistant or Czar at the White House to address the 
issue. While their roles were important and the individuals holding 
these positions achieved significant accomplishments, they lacked the 
fundamental jurisdictional and budgetary authorities necessary to drive 
public and private-sector efforts.
    The WMD Commission shared our concern about the lack of White House 
leadership and governance regarding biodefense. The absence of guidance 
and accountability created by this lack of centralized leadership may 
have been the reason why the Commission's recommendations were not 
implemented effectively. These recommendations included reviewing the 
Select Agent Program, strengthening global disease surveillance, and 
enhancing National rapid response. Recent events, such as Ebola and 
U.S. laboratory biosafety and biosecurity incidents, demonstrate that 
these are still not functioning as well as they should.
    There are those who believe that many issues are at least as 
important, complicated, and in need of a centrally-led whole-of-Nation 
effort, from cyber attacks to violent extremism. We believe, however, 
that biodefense is unique. Biodefense is one of the Federal 
Government's most important National defense functions, falling 
squarely within the purview of the Federal Government. Biodefense 
affects National security, homeland security, public health security, 
and economic security. As such, it requires a complex and highly-
sophisticated enterprise approach. More than a dozen departments and 
agencies must work in tandem toward a common endpoint, with an 
understanding of intermediate and end goals and the need to eliminate 
duplicative expenditures in this time of fiscal constraint. We need a 
driven leader with policy, political, and budget authority sufficient 
to achieve what has never been achieved before and establish needed 
harmony and priorities for biodefense.
    Insufficient coordination, collaboration, and innovation result 
from this lack of centralized leadership. The efforts of well-
intentioned departments and agencies to coordinate among themselves and 
address some aspects of biodefense have fallen short. An overarching 
leader at the White House must direct and harmonize these efforts, 
setting priorities, goals, and objectives for biodefense and holding 
members of the Executive Branch accountable for meeting them.
    This leader must also take charge of intergovernmental 
collaborative efforts because biodefense depends on the substantial 
participation of State, local, territorial, and Tribal governments and 
their non-Governmental partners. They--not the Federal Government--will 
immediately feel and respond to biological events. The Federal 
Government must help them become more capable, allow them greater 
access, and provide them far more support than they are currently 
getting.
    Biological threats are imminent, biological vulnerabilities have 
existed for too long, and the complexity of the threat requires equally 
complex solutions. As a result, biodefense is in urgent need of much 
greater focus on innovation. The risk aversion generally demonstrated 
by the Government is often prudent, but in biodefense, it inhibits the 
entrepreneurial thinking and technological improvements we need for 
radical, effective solutions.
    Sufficient coordination, collaboration, and innovation in 
biodefense will improve the security of the American people. With 
effective and efficient biodefense, for example, we would have 
hospitals able to handle diseases like Ebola, city governments able to 
dispense medical countermeasures to their populations, and industry 
able to solve our greatest challenges in biodetection.
    The 33 recommendations and more than 100 short-, medium-, and long-
term programmatic, legislative, and policy actions in our report can 
improve our Nation's ability to prevent, deter, prepare for, detect, 
respond to, attribute, recover from, and mitigate biological events. 
Collectively, they serve as a blueprint for biodefense. While we 
believe they are all important, our most important recommendations 
address leadership, biodefense strategy, biosurveillance, and medical 
countermeasures.
    1. Leadership.--First and foremost, we recommend the instatement of 
        a leader at the highest level of Government who recognizes the 
        severity of the biological threat and possesses the authority 
        and political will to defend against it. This top-level leader 
        should be the Vice President of the United States. The Vice 
        President can act on behalf of the President when instilled 
        with Presidential imprimatur and given authority as the 
        President's proxy. The primary goal of centralizing leadership 
        is to place coordination and oversight responsibility in a 
        location that will have sufficient jurisdictional and budget 
        authority regardless of personalities or party in power, and 
        with a person in a position with the ability to make executive 
        decisions. The Vice President possesses these attributes. By 
        establishing and leading a Biodefense Coordination Council, the 
        Vice President can also drive a Federal and non-Federal 
        coalition toward solutions.
    2. Biodefense Strategy.--Solutions depend on a well-considered 
        comprehensive strategy. The Vice President's top priority must 
        be to develop the National Biodefense Strategy of the United 
        States of America. This strategy should address all 
        organizations with responsibilities for biodefense and 
        harmonize their efforts, as well as define the Executive branch 
        organizational structures and requirements, modernization and 
        realignment plans, and resource requirements necessary for 
        implementation. The White House staff must collate existing 
        strategies and plans, identify requirements within extant 
        policies, assess spending history and value, and then draft a 
        comprehensive strategy. With this strategy, policymakers will 
        be able to assess where we are falling short of meeting the 
        goals and objectives included therein and the President and the 
        Congress will be able to determine where best to allocate 
        resources. We strongly recommend that the President implement a 
        unified biodefense budget for this purpose.
    3. Biosurveillance.--Improving our capacity for rapid detection of 
        dispersed or circulating biological agents is one of the most 
        important actions we can take to protect ourselves. The 
        Department of Homeland Security (DHS) has made early detection 
        a key goal of its biodefense efforts since the Department was 
        established. Some limited progress has been made with the 
        fielding of BioWatch detectors in high-risk jurisdictions 
        around the country and the collection and integration of 
        biosurveillance data by the National Biosurveillance 
        Integration System. Unfortunately, we are still not reliably 
        capable of the kind of rapid detection of the spectrum of 
        biological threat agents envisioned a decade ago. We have two 
        choices: Either we make existing biodetection and 
        biosurveillance programs work, or we replace them with 
        solutions that do. We believe that the many departments and 
        agencies which must coordinate with DHS on detection and 
        biosurveillance will only do so if someone above the level of 
        the White House staff forces the issue.
    4. Medical Countermeasures (MCM).--According to Senator Talent, the 
        development of MCM should be a high priority for policymakers 
        because it is clear that success can be achieved in this 
        specific area. We can surmount the technological and resource 
        challenges to taking threats off the table with MCM. Industry 
        is abounding with innovative ideas. We must reduce bureaucratic 
        hurdles at the Department of Health and Human Services and 
        increase efforts to incentivize and fund what is still a 
        growing MCM industry for biodefense. Returning contracting 
        authority to the Director of the Biomedical Advanced Research 
        and Development Authority and convening industry partners to 
        help determine which incentives will be most effective.
    5. One Health.--Animal health and environmental health are equal to 
        human health. This approach, known as One Health, is the glue 
        that will cohere these efforts. Zoonoses comprise the vast 
        majority of emerging infectious disease threats faced by 
        humans. They are also the pathogens the intelligence community 
        is most concerned about terrorists acquiring. Zoonotic diseases 
        interact with their environments and move between animals and 
        people. Ebola, for example, came to humans through animals and 
        avian influenza spread from wild birds through their 
        environment to reach farm animals. Clearly, we were not and 
        still are not prepared to deal with the impact of this type of 
        disease. The DHS National Bio- and Agro-Defense Facility will 
        provide an important laboratory capacity. Nevertheless, we must 
        also prioritize, properly guide and fund, and fully integrate 
        Department of Agriculture, Department of the Interior, and 
        State-level animal infectious disease surveillance, as well as 
        State, local, territorial, and Tribal planning and surveillance 
        for zoonoses, into all biodefense efforts.
    While we only described a few of our recommendations here, we 
submit that all 33 recommendations are necessary. Our other 
recommendations, including those to enhance intelligence collection, 
protect pathogen data from cyber threats, overhaul the Select Agent 
Program, support hospital preparedness and public health preparedness 
grants, and lead international efforts in public health response and 
biological weapons diplomacy, will lead us to a position of much 
greater strength.
    We know that the committee has a particular interest in DHS. You 
will find that in addition to biosurveillance, we recommend changes in 
other areas. For instance, we believe that the Federal Emergency 
Management Agency needs a more prominent seat at the table in 
discussions on how to remediate communities after a biological 
disaster. We believe that the Office of Intelligence and Analysis has 
an important role to play in information sharing with fusion centers 
and our State and local partners. We also submit that the Department's 
role in providing bioforensics services to Federal partners needs to 
shift rather dramatically, and that the forensics laboratory that does 
this work should have been established at the FBI, rather than at DHS, 
from the beginning.
    If executed efficiently, effectively, and in concert, we can 
advance our National defense against biological threats by implementing 
these recommendations.
    Congress plays an extremely important role in conducting oversight 
and providing authorities regarding all of these recommendations. We 
provide a number of recommendations to amend legislation and coordinate 
Congressional oversight. We hope you and your colleagues on other 
committees and in the House will consider the extensive list of 
suggested topics in need of oversight also contained in our report. We 
offer that our recommendations for a comprehensive strategy and unified 
budget will enable this oversight and allow Congress much greater 
transparency into the successes and continued challenges within the 
Executive branch.
    As we close, we ask you to keep in mind the concerns of our 
citizenry. Ebola came to the United States and claimed lives here and 
abroad. Chikungunya is beginning to encroach upon Puerto Rico and the 
U.S. Virgin Islands, and sick travelers from abroad have presented 
throughout the mainland. Americans are wondering why we still do not 
have vaccines or treatments for these diseases. The Islamic State of 
Iraq and the Levant used chemical weapons in the Middle East earlier 
this year, and the public is worried about the proximity of our troops. 
Television shows and movies feature diseases and their devastating 
effects on society, and they know many aspects of those scenarios are 
realistic. They understand and are close to this issue. They want us to 
do something about it, before terrorists use biological weapons, 
laboratories release more agents accidentally, or new diseases emerge.
    The biological threat is already out there. It is too late to get 
ahead of it, but we can still reduce our vulnerabilities and get ahead 
of its impact.
    The Committee on Homeland Security has been one of the most active 
House committees on this issue. We recognize that with the introduction 
of authorizing legislation, you have attempted to resolve capability 
gaps. The Committee has, in many ways, provided substantial oversight 
to try to ensure that those DHS elements responsible for biodefense run 
efficiently and in a fiscally responsible manner, and that other 
agencies coordinate with them. We strongly encourage your continued 
work in this area and look forward to working with you to strengthen 
National biodefense.
    Thank you again for this opportunity to provide our perspective. We 
would also like to thank our institutional sponsors (Hudson Institute 
and the Inter-University Center for Terrorism Studies at Potomac 
Institute for Policy Studies) and all of the organizations that 
provided financial and other support to our efforts.
    Please see our bipartisan report, ``A National Blueprint for 
Biodefense: Major Reform Needed to Optimize Efforts'' for our 33 
recommendations and associated action items.
     recommendations of the blue ribbon study panel for biodefense
    1. Institutionalize biodefense in the Office of the Vice President 
        of the United States.
    2. Establish a Biodefense Coordination Council at the White House, 
        led by the Vice President.
    3. Develop, implement, and update a comprehensive National 
        biodefense strategy.
    4. Unify biodefense budgeting.
    5. Determine and establish a clear Congressional agenda to ensure 
        National biodefense.
    6. Improve management of the biological intelligence enterprise.
    7. Integrate animal health and One Health approaches into 
        biodefense strategies.
    8. Prioritize and align investments in medical countermeasures 
        among all Federal stakeholders.
    9. Better support and inform decisions based on biological 
        attribution.
    10. Establish a National environmental decontamination and 
        remediation capacity.
    11. Implement an integrated National biosurveillance capability.
    12. Empower non-Federal entities to be equal biosurveillance 
        partners.
    13. Optimize the National Biosurveillance Integration System.
    14. Improve surveillance of and planning for animal and zoonotic 
        outbreaks.
    15. Provide emergency service providers with the resources they 
        need to keep themselves and their families safe.
    16. Redouble efforts to share information with State, local, 
        territorial, and Tribal partners.
    17. Fund the Public Health Emergency Preparedness cooperative 
        agreement at no less than authorized levels.
    18. Establish and utilize a standard process to develop and issue 
        clinical infection control guidance for biological events.
    19. Minimize redirection of Hospital Preparedness Program funds.
    20. Provide the financial incentives hospitals need to prepare for 
        biological events.
    21. Establish a biodefense hospital system.
    22. Develop and implement a Medical Countermeasure Response 
        Framework.
    23. Allow for forward deployment of Strategic National Stockpile 
        assets.
    24. Harden pathogen and advanced biotechnology information from 
        cyber attacks.
    25. Renew U.S. leadership of the Biological and Toxin Weapons 
        Convention.
    26. Implement military-civilian collaboration for biodefense.
    27. Prioritize innovation over incrementalism in medical 
        countermeasure development.
    28. Fully prioritize, fund, and incentivize the medical 
        countermeasure enterprise.
    29. Reform Biomedical Advanced Research and Development Authority 
        contracting.
    30. Incentivize development of rapid point-of-care diagnostics.
    31. Develop a 21st Century-worthy environmental detection system.
    32. Review and overhaul the Select Agent Program.
    33. Lead the way toward establishing a functional and agile global 
        public health response apparatus.

    Chairman McCaul. We thank you. We look forward to working 
with you moving forward in the future on both of those 
important issues.
    Next, the Chair recognizes Senator Lieberman for an opening 
statement.

 STATEMENT OF HON. JOSEPH I. LIEBERMAN, CO-CHAIR, BLUE RIBBON 
                   STUDY PANEL ON BIODEFENSE

    Mr. Lieberman. Thanks very much, Chairman McCaul, Ranking 
Member Thompson, Mr. Keating. Thank you for having us here. It 
is great to be back here.
    Let me first thank you for the historic interest and focus 
of this committee on the biodefense problem and challenge, and 
I think you have really been leaders in that. I want to thank 
you specifically for convening this hearing on our report less 
than a week after we issued it. We appreciate that attention 
very much.
    But, you know, no good deed goes unrewarded or unpunished, 
so we hope, as this hearing goes on, you will feel strongly 
enough about at least some of the recommendations we make here 
that you will become champions for them, both in your 
legislative and oversight capacities.
    This is a panel that came together, stimulated, frankly, by 
a guy named Bob Kadlec, who many of you know, who was our 
founding staff director, worked in the White House on this 
specific area in the last administration, and housed at the 
Hudson Institute here.
    I am very proud of the report. The panel itself was 
surprisingly small for these operations and totally bipartisan. 
So, great to be working again with Tom Ridge, who I not only 
have such great admiration for, I even like him. I mean, this 
is really--I enjoy spending time with him.
    But the other members: Secretary Donna Shalala, former 
Senate Majority Leader Tom Daschle, former Congressman Jim 
Greenwood, and former Homeland Security Advisor Ken Wainstein.
    This will not surprise you, but, to the extent that the 
report has any substance, credibility, and vision, it is 
undoubtedly because Governor Ridge and I had the wisdom to 
choose as our two top staff members alumni of this committee, 
Dr. Ellen Carlin and Dr. Asha George.
    We thank you for the preparation that you gave when you 
took this on.
    So let me see if I can summarize and just add to what 
Governor Ridge said.
    It is about 14 years ago this month that the anthrax 
attacks on Capitol Hill and elsewhere around the country, 
including Connecticut, occurred, killing people, including a 
lady in Connecticut. Obviously, you will remember that our 
panel member Senator Daschle, his office was a target of those 
attacks.
    After the attacks, there was a significant increase in the 
Federal programs that were aimed at dealing with biodefense, 
the bio threat, both the bioterrorist attacks and, as time went 
on, clearly, the comparable threat of infectious disease 
outbreaks and pandemics.
    Our panel looked back at what we have done, and I think it 
is fair to say in summary that we saw substantial 
accomplishment but, really, not enough has been accomplished, 
particularly based on what we are spending.
    When we talk about the absence of leadership and our own 
recommendation that leadership be given to somebody at the 
rank, the level of the Vice President, part of that is 
because--I will give you an example--it is very hard to find 
out exactly how much we are spending on biodefense in the 
Federal Government. In fact, the most reliable number we got, 
or at least we felt, was not from the Federal Government but 
from the University of Pittsburgh, which has a center on 
bioterrorism. It is about $6 billion a year.
    We don't think we are getting our money's worth, 
effectively, of that, in part because it is not adequately 
coordinated. So I think Governor Ridge and I and the members of 
our panel feel that we can accomplish what we are recommending 
without a substantial increase and hopefully without any 
increase in spending.
    Is the threat real? I think we concluded that the threat of 
bioterrorism and infectious disease pandemics is not only real, 
it is growing.
    Mr. Chairman, you testified to that in your opening 
statement. We all dealt with Ebola last year. The Government 
seemed, certainly to me, unprepared for what came. We were 
lucky, thank God, that the impact here was so minor. We may not 
be so fortunate the next time.
    Right now, there is an infectious disease called 
Chikungunya which is beginning to encroach on Puerto Rico and 
the U.S. Virgin Islands. Travelers from those places come to 
the United States, are bringing it here, and it is beginning to 
have an impact. We are not really prepared, I don't think, to 
deal with it.
    All you have to do is look at what people in ISIS are 
saying about a bioterrorist attack, and it is enough to--when 
you think about the extent to which ISIS has built its 
reputation and its latent state, the state that it has declared 
so quickly, it is based on the willingness to go further than 
other radical Islamist terrorist groups in ways they have found 
to kill people, particularly the beheadings. I worry that 
bioterrorism and a bioterrorist attack is, unfortunately, 
almost irresistible to them, and we have to think about that 
possibility as we go on.
    Governor Ridge talked about the main--the last report done, 
incidentally, on this challenge was done by the so-called 
Graham-Talent Commission 7 years ago, and, really, not enough 
has happened in response to that.
    I know you will have questions about the decisions we made 
to recommend that the Vice President coordinate this. In some 
sense, we backed into that recommendation because every other 
alternative that we found we thought was not strong enough. We 
didn't want to make one department of our Government, even 
Homeland Security, which is the central department responsible 
for coordinating all the other departments, at least 12 that we 
found, involved in this.
    We thought about recommending that an assistant to the 
President have this responsibility. That is not a bad 
suggestion, but, as Governor Ridge said, that doesn't have the 
heft and the strength that we were looking for, and so we 
ultimately recommended the Vice President. We are glad to 
answer questions about that.
    Governor Ridge mentioned the One Health approach. I just 
want to say that one of the things I learned as we did our work 
here was how--one thing I learned is the definition of the term 
``zoonotic,'' which wasn't something I had been familiar with 
enough before, which is the extent to which human disease comes 
from animals, and not enough recognition of that.
    I mean, one of the, to us, stunning findings was that there 
is no comprehensive, standardized, sort-of, National registry 
or list in real time of outbreak of diseases among animal 
populations in the country, comparable to what we have for 
humans, and, therefore, we don't have that early warning that 
we could have about what may be next for us.
    Finally, I just want to touch on the Department of Homeland 
Security. Tom Ridge talked about our concerns about the 
existing BioWatch system, and they are real. I mean, we are 
operating with old technology, and the program is really not 
doing its job. We ought to dramatically improve it or sack it 
and figure out a way to do the job better.
    Very briefly, we had other recommendations regarding DHS. 
We believe that FEMA needs a more prominent seat at the table 
in discussions about how to remediate communities after a 
biological disaster.
    We also believe that the Office of Intelligence and 
Analysis has an important role to play in information sharing 
with fusion centers and our State and local partners about the 
bioterrorist threats.
    As I believe Governor Ridge mentioned--I will just touch on 
it briefly--we concluded that the Department's role in 
providing bioforensic services to Federal partners needs to 
shift and that the forensic laboratory that does this work 
actually should be in the FBI, should be transferred to the 
FBI, because that is its major client.
    This report is--it is not wonkish, but it is detailed and 
substantive and practical. Thirty-three blocks of 
recommendations, almost 100 action items, Executive and 
Legislative, in it. But, as I said a few moments ago, it needs 
champions here on the Hill.
    I can tell you that Governor Ridge and I and our panel 
members intend to stay together to be advocates and supporters 
for anyone in the Legislative and Executive branches who wants 
to take our report seriously, not necessarily embrace it all, 
but take parts of it. We will be happy to provide any support 
we can to implement this as we go forward.
    Thanks, Mr. Chairman. I look forward to your questions.
    Chairman McCaul. Thank you, Senator.
    The Chair now recognizes Dr. Cole.

STATEMENT OF LEONARD A. COLE, PH.D., DIRECTOR, TERROR MEDICINE 
AND SECURITY PROGRAM, DEPARTMENT OF EMERGENCY MEDICINE, RUTGERS 
                   NEW JERSEY MEDICAL SCHOOL

    Mr. Cole. Thank you, Chairman McCaul, and to you and to 
Ranking Member Thompson for inviting me to speak on the threat 
posed by terrorism and, more importantly, for the vital work 
that you and other committee Members are doing to strengthen 
the security of our country.
    I feel especially privileged to be sharing a table with 
former Governor Tom Ridge and former Senator Joe Lieberman, two 
of our Nation's most distinguished public servants. I 
congratulate them on chairing the bipartisan Blue Ribbon Study 
Panel, whose excellent new report, ``A National Blueprint for 
Biodefense,'' is of key interest here.
    As you may know, in previous testimony before some Homeland 
Security subcommittees, I have referenced a 2012 paper titled 
``WMD Terrorism''--``Weapons of Mass Destruction Terrorism.'' 
It was produced by the Aspen Institute's Homeland Security 
Working Group, on which I served.
    The Aspen paper has emphasized at some level what you have 
been hearing so far from our two previous witnesses, that 
bioterrorism remains a continuing and serious threat. But a 
virtue of the new Lieberman-Ridge blueprint is that it digs 
more deeply into numerous biodefense activities, details their 
flaws, and it lists recommendations for remediation.
    Many of the policy deficits derive from turf issues, 
bureaucratic inertia, and the absence of a coherent National 
strategy. A casual observer might feel overwhelmed by the 
multiplicity of issues cited in the blueprint, which includes, 
as you heard, about 100 recommendations and subsets of action 
items. Yet failure to absorb the importance of the report's key 
messages would be a disservice to our National interest.
    Let me make three essential observations that are drawn 
from the blueprint, as they have been from a few other previous 
reports, as well.
    First, the biological threat is real and, in a worst-case 
scenario, could be catastrophic. We have to think no farther 
back than the 20th Century to know that, in the period of 1918 
and 1919, a pandemic of what was called Spanish flu killed more 
than 50 million people and estimates have suggested as many as 
100 million around the world. It is also true that, in the 
first half of the 20th Century, before smallpox was eliminated, 
an estimated 300 million people in the world were killed, or 
died, as a result of smallpox.
    Second, biodefense activities conducted by scores of 
Government agencies are, quite evidently, uncoordinated, and 
many are redundant. Talk about saving money. There is an 
opportunity right there not to duplicate or triplicate, if that 
is such a word.
    Third, an individual with full Presidential authority 
should be designated to oversee and coordinate the Nation's 
biosecurity policies and activities. Strengthening biodefense 
capabilities can also enhance defense against disease outbreaks 
in general.
    Travelers from countries with high rates of Ebola currently 
are screened upon arrival in the United States. After landing 
at Newark International Airport, a suspected Ebola patient is 
taken to the University Hospital in Newark and remains in a 
special containment area for days or weeks under observation. 
My information is that the latest number of Ebola patients, or 
suspected Ebola patients--none turned out to have actually been 
infected--numbered about 18 since the Ebola outbreak began in 
mid-2014.
    An official from the World Health Organization termed the 
hospital's response capability, ``a model for other 
hospitals.'' Yet that facility can accommodate no more than 1 
or 2 patients at a time.
    In this instance, the medical needs would be the same 
whether the genesis of the disease was deliberate or not. 
Either way, a few simultaneous cases could overwhelm the 
hospital's ability to provide adequate care. I underscore 
again, this hospital is unusually well-prepared, as considered 
by the World Health Organization.
    Well, it also indicates that biodefense expenditures to 
expand the surge capacity for several more victims, to 
accommodate several more potential victims, could benefit 
nondefense needs as well.
    On another important matter for consideration, the 
blueprint's top-down emphasis barely addresses the need for 
education within the general medical community. The field of 
terror medicine, which includes aspects of disaster and 
emergency medicine, focuses on the distinctive features of a 
medical response to a terrorist attack. Yet, even years after 
the 2001 anthrax attacks, many physicians, nurses, and other 
medical staff feel unprepared to deal with biological or other 
forms of terrorism.
    The Rutgers New Jersey Medical School offers a course on 
terror medicine. The curriculum includes hands-on simulation 
exercises involving biological and other terror threats. 
Students and faculty who have participated have been uniformly 
enthusiastic about the experience.
    Familiarizing the medical community throughout the country 
with the essentials of terror medicine would provide a bottom-
up approach toward a goal shared with the authors of the 
blueprint--namely, enhancement of the country's biodefense.
    More education for doctors and others on terror medicine 
should be encouraged. The co-chairs of the Blue Ribbon Panel 
indicated their intention to press vigorously for the enactment 
of the blueprint's recommendations. I wish them great success. 
Actually, I wish all of us great success in this. But I also 
suggest that support from a broad base of informed health care 
providers could augment their efforts.
    Thank you for your attention to this important matter, and 
I look forward to discussion, questions, and answers.
    [The prepared statement of Mr. Cole follows:]
                Prepared Statement of Leonard A. Cole\1\
---------------------------------------------------------------------------
    \1\ Unless otherwise indicated the views expressed here are my own 
and not representative of any institution.
---------------------------------------------------------------------------
                            November 3, 2015
    Chairman McCaul and Ranking Member Thompson, thank you for inviting 
me to speak on the threat posed by bioterrorism, and more importantly, 
for the vital work that you and the other committee Members are doing 
to strengthen the security of our country. I feel especially privileged 
to be sharing a table with former Governor Tom Ridge and former Senator 
Joe Lieberman, two of our Nation's most distinguished public servants. 
I congratulate them on chairing the bipartisan Blue Ribbon Study Panel 
whose excellent new report, A National Blueprint for Biodefense, is of 
key interest at this hearing.
    As you may know, in previous testimony before subcommittees of the 
House Homeland Security Committee I have referenced a 2012 paper titled 
WMD Terrorism. It was produced by the Aspen Institute's Homeland 
Security Working Group, on which I served. While reviewing the threat 
of terrorism posed by various weapons of mass destruction the Aspen 
paper emphasized that bioterrorism remains a continuing and serious 
threat. A virtue of the new Lieberman-Ridge Blueprint is that it digs 
more deeply into numerous biodefense activities, details their flaws, 
and lists recommendations for remediation. Many of the policy deficits 
derive from turf issues, bureaucratic inertia, and the absence of a 
coherent National strategy. A casual observer might feel overwhelmed by 
the multiplicity of issues cited in the Blueprint, which includes about 
100 recommendations and subsets of action items. Yet failure to absorb 
the importance of the report's key messages would be a disservice to 
our National interest.
    Let me make three essential observations that are drawn from the 
Blueprint and a few other reports that preceded it:
    1. The biological threat is real and in a worst-case scenario could 
        be catastrophic.
    2. Biodefense activities conducted by scores of Government agencies 
        are uncoordinated and many are redundant.
    3. An individual with full Presidential authority should be 
        designated to oversee and coordinate the Nation's biosecurity 
        policies and activities.
    I am aware that specifics about some of the recommendations have 
been questioned--for example, that the Vice President be the designated 
leader for oversight of biodefense. This designation, according to the 
Blueprint, would assure White House authority behind efforts to promote 
cooperation among agencies. But it also assumes that the Vice President 
is conversant with biodefense issues and that a Vice President's other 
obligations would allow for adequate attention to a new and large 
responsibility. Still, the need to resolve such details should not 
obscure the Blueprint's overall importance.
    In some respects, strengthening biodefense capabilities can also 
enhance defense against disease outbreaks in general. A deliberate 
bioattack, as the report notes, at some point is likely. It is also 
true that future naturally-occurring epidemics are certain. Emphasizing 
the overlapping benefit of preparedness for either eventuality should 
be a source of support for both.
    A blurring of the line between deliberate and natural causes has 
been evident in the Ebola epidemic, which began in mid-2014 in West 
Africa. The World Health Organization estimates that the outbreak has 
thus far resulted in more than 28,000 cases including 11,000 deaths. 
The Ebola virus is deemed a potential bioterrorism agent, though this 
recent outbreak was of natural origin. Travelers from countries with 
high rates of the disease are screened upon arrival in the United 
States. After landing at Newark International Airport a suspected Ebola 
patient is taken to the University Hospital in Newark and remains there 
for days or weeks under observation. The patient is confined to an 
extended treatment area in a huge open space in one of the hospital 
buildings. The treatment area includes elaborate plumbing and 
electrical systems, negative pressure containment enclosures, and 
special waste management systems. An official from the WHO termed the 
hospital's response capability a ``model for other hospitals.'' Yet for 
all the praise, the facility can accommodate no more than one or two 
patients at a time.
    At this point of understanding, the medical needs would be the same 
whether the genesis of the disease was deliberate or not. Either way, a 
few simultaneous cases could overwhelm the hospital's ability to 
provide adequate care. Thus biodefense expenditures to expand surge 
capacity, say for a dozen victims, could benefit non-defense needs as 
well.
    The Blueprint offers credible pathways to improve biodefense, 
though its top-down emphasis barely addresses the need for education 
within the general medical community. The field of terror medicine, 
which includes aspects of disaster and emergency medicine, focuses on 
distinctive features of a medical response to a terrorist attack. A 
health care provider is likely to be the first professional to identify 
a patient's illness as potentially related to biological terrorism. 
This was illustrated in 2001 when victims of the anthrax letter attacks 
began to show up in doctors' offices and hospital emergency rooms. Yet 
even years after those attacks, many physicians, nurses, and others in 
the medical community feel unprepared to deal with biological or other 
forms of terrorism.\2\ \3\
---------------------------------------------------------------------------
    \2\ Smith and Hewison. ``Are Nurses Prepared to Respond to a 
Bioterrorist Attack: A Narrative Synthesis,'' Journal of Advanced 
Nursing (2012) 68:12. http://www.ncbi.nlm.nih.gov/pubmed/22708982
    \3\ Stankovic, et al. ``Bioterrorism: Evaluating the Preparedness 
of Pediatricians in Michigan,''  Pediatric Emergency Care (2009) 25: 2. 
http://journals.lww.com/pec-online/Abstract/2009/02000/
Bioterrorism_Evaluating_the_Preparedness_of.8.aspx
---------------------------------------------------------------------------
    For the past 2 years the Rutgers New Jersey Medical School has 
offered a course on terror medicine to fourth-year medical students. 
The curriculum includes lectures, videos, and hands-on simulation 
exercises involving biological and other terror threats. The dozens of 
students and faculty who have participated have been uniformly 
enthusiastic about the experience. Links to relevant articles about the 
course are listed at the end of my written testimony.
    Familiarizing the medical community throughout the country with the 
essentials of terror medicine would provide a bottom-up approach toward 
a goal shared with the authors of the Blueprint: Enhancement of the 
country's biodefense. Enrollment in courses and other instructional 
formats on terror medicine should be encouraged.
    The co-chairs of the Blue Ribbon Panel have indicated their 
intention to press vigorously for enactment of the Blueprint's 
recommendations. I wish them great success. But I also suggest that 
support from a broad base of informed and enthusiastic health care 
providers could augment their efforts.
    Thank you again for your attention to this very important matter.
      Sample Articles About the Rutgers Course on Terror Medicine
    Cole, et al. ``Terror Medicine As Part of the Medical School 
Curriculum,'' Frontiers in Public Health: Disaster and Emergency 
Medicine, September 12, 2014. http://dx.doi.org/10.3389/
fpubh.2014.00138
    Barnes, ``Terror May Become a Bigger Focus at Med School,'' Global 
Security Newswire, produced by National Journal, June 24, 2014. http://
www.nti.org/gsn/article/terror-may-become-bigger-focus-med-school/
    Kitchenman, ``Medical School Students Gain Insight into Harsh 
Reality of `Terror Medicine','' NJ Spotlight, April 4, 2014. http://
www.njspotlight.com/stories/14/04/03/medical-school-students-gain-
insight-into-harsh-reality-of-terror-medicine-issues/
  Sample Statements from Student Evaluations of the Course on Terror 
                                Medicine
    ``A fantastic introduction to terror medicine, an area we would 
otherwise never learn about.''
    ``The course explored topics that have not been touched on in 
previous medical school classes but are very relevant to every medical 
student.''
    ``It was great, informative, and relevant.''
    ``Very interesting and valuable lessons in a short amount of time 
and I would recommend to every medical student.''
    ``This course provides an in-depth introduction to terror medicine 
and is a valuable springboard to a field that future doctors should be 
aware of and comfortable with.''

    Chairman McCaul. Thank you, Dr. Cole.
    I now recognize myself for questions.
    First, before I get into the recommendations, I really want 
to kind of highlight the nature of this threat. I think as we 
saw with Ebola--and it hit my home State of Texas--just a 
handful of cases, but the wide-spread panic and fear was 
palpable. It is the enemy that you can't see. That is what 
instilled, I think, the terror in Americans, that they couldn't 
see it, and they didn't know where it was coming from, and they 
would go on an airplane, and they would be concerned about, you 
know, their susceptibility.
    You know, there is Mother Nature as a threat that evolves. 
As you mentioned, the pandemics. A SARS airborne strain would 
be of grave concern. But then there is also the ability of 
terrorists to exploit biological weapons and use those against 
Americans.
    I want to just quote from a report and get your comment on 
how realistic this threat possibly could be. But a laptop was 
recently recovered from an Islamist State jihadist, which 
contained a hidden trove of secret plans, including weaponizing 
the bubonic plague.
    As this report says, most chilling were files that 
indicated the computer's owner, identified as a Tunisian 
national, joined ISIS in Syria after studying chemistry and 
physics at two universities in Tunisia, taught himself how to 
manufacture biological weapons in preparation for a potential 
attack that could have been catastrophic on a global scale.
    It goes on: A 19-page document in Arabic included 
instructions on how to develop biological weapons and how to 
weaponize the bubonic plague from infected animals. It says, 
``The advantage of biological weapons is they do not cost a lot 
of money, while the human casualties can be huge.''
    I would just like for all three of you, perhaps, to comment 
on that very briefly.
    Secretary Ridge.
    Mr. Ridge. Well, Mr. Chairman, I believe one of the reasons 
that you get a sense of urgency--we are not reckless about 
this, but there is a sense of urgency--is our assessment that 
the threat is real. That is just one indication of how serious 
one sector of our enemies take the capacity-building of 
bioweapons into consideration as part of their arsenal.
    We also know that there are five or six countries that have 
signed pledges not to develop these weapons, but they still 
have active research capabilities. On top of that, you are 
never quite sure what Mother Nature is going to throw at you.
    But, with regard to the terrorism threat, we are foolish if 
we don't accept the reality that if you--like ISIL, if they 
control territory, have access to money, plenty of information 
available on the internet how to do this--obviously, they have 
already given some serious thought and may actually be in 
preparation of trying to weaponize any number of pathogens--
then let's say to ourselves that the threat is real and let's 
begin educating multiple constituencies.
    Not that we are going to have to alarm America. We have 
demonstrated we are resilient. But we also like to know the 
threats we are confronted with. So some public education around 
that area. There are two other constituencies: The health care 
workers and the emergency responders.
    So the threat is real. It is not as if we are anticipating 
it. It is out there. We have to act, not in a reactive way, but 
this is all about preemption. You know, democracies are more 
inclined to act in response to a crisis. The threat is real. We 
had better act before the crisis occurs.
    Chairman McCaul. Senator Lieberman.
    Mr. Lieberman. Thanks, Chairman.
    The excerpt that you read really is chilling, but it is 
quite realistic. Frankly, as I look back, it surprises me that 
we haven't, thank God, experienced a bioterrorist attack in 
this country of any significance since the outbreak of the war 
against Islamist extremism and terrorism. Because, as the 
Graham-Talent Commission said, compared to the other forms of 
weapons of mass destruction, a biological weapon is relatively 
easier to put together--not easy--and, of course, easier to 
either transport into the country or do here.
    If you want a standard of the scope of the threat, really, 
it is to go to the infectious diseases that Dr. Cole talked 
about and the enormous loss of life that has occurred over our 
history, because that can be replicated in a bioterrorist 
attack.
    It is really striking, going back to the word ``zoonotic,'' 
that, in the excerpt you read, the plan was to draw the 
disease, if you will, from an animal population and weaponize 
it to be used against people.
    So this is not a threat that we are creating. This is real. 
As Tom just said, we had better get ahead of it before it 
strikes us and we are running to catch up. It is pretty clear 
we are not ready for the threat now.
    Chairman McCaul. Dr. Cole, before you answer, you mentioned 
smallpox killed 300 million people. That has been eradicated 
but not vaccinated currently. If there was an outbreak of 
smallpox today, what kind of position would we find ourselves 
in? Do we have the capability to respond to that?
    Mr. Cole. Well, you might remember that on the eve of 
consideration of sending troops to Iraq there was concern that 
some terrorists or perhaps in Iraq itself there were some 
capabilities with smallpox, in particular. The President then, 
President Bush, George W. Bush, with the advice of the CDC, 
said we ought to have a vaccination program revived, including 
stockpiling.
    What happened was that that recommendation of some 10 
million inoculees initially--first responders, police, fire--
pretty much melted after it was clear that there was no 
smallpox threat at that time. But there still has been, 
fortunately, in my opinion--and I believe everybody would 
agree--a build-up and stockpiling of more smallpox vaccine.
    As one colleague of mine said, you know, all we need is a 
case of smallpox, one case, anywhere in the world, and we will 
all really be on the edge of concern and probably start some 
active vaccination program.
    So the short answer is we are in better shape now than we 
were 15 years ago. How it would play out and how quickly we 
would be able to vaccinate people is another question.
    I would just say, if I may steal a little time here, in 
response to some of the concerns that we have heard, 
particularly from Senator Lieberman, his wonder about why we 
haven't had a bio attack until now, well, first of all, it 
hasn't been for lack of effort. Al-Qaeda had actual 
laboratories working on developing anthrax as a weapon.
    When you deal with biological agents, even of the same 
genus or strain, like anthrax, where there are probably a 
thousand variations, some are virulent, some will kill, some 
are not. So there is more of a variation in the kind of 
material in a biological arsenal potentially, and it is not 
certain to kill. When you release bio agents into the air, a 
lot of variables take place. Wind, sun, ultraviolet light can 
kill them.
    On the other hand, we do know the potential. As the old 
saying goes we have heard over and over again, we have to be 
right every time in our defense and prevention of terrorism; 
the terrorists have to be right only once. You can say the same 
thing as an analogy with bioterrorism. Maybe 99 times the 
effort will fail in an enemy's laboratory, an adversary's 
laboratory, but all you need is one success to create a major, 
major problem.
    Chairman McCaul. I agree with that.
    In the limited time I have, I want to touch on the 
recommendations, Secretary Ridge and Senator.
    I agree, we asked the question, ``Who is in charge?'' when 
Ebola was breaking out, and the answer was, ``We don't really 
know.'' I think the White House has to have a unified effort, 
whether that be an assistant secretary or at the Vice 
Presidential level. I think those are strong recommendations.
    Within this committee's jurisdiction, we are proposing 
streamlined and elevated WMD functions into a unified office 
within the Department of Homeland Security--and this is sort-of 
the organizational chart that we are looking at--based upon the 
recommendations of this report.
    I just wanted to give the two of you time to comment on 
that.
    Mr. Ridge. Well, first of all, I think I will defer to this 
committee as a partner in the evolution of DHS and to Secretary 
Johnson. I am not about to move portions of his infrastructure 
around, and I will let the two of you work it out.
    I do think, however, that in spite of that reorganization, 
which may--because there are probably overlapping 
jurisdictions, and it is not about cost savings--might give a 
more specific focus on the WMD--and I think that is what you 
are trying to do--DHS will still be one of multiple agencies 
dealing with the bio threat and the biodefense.
    So let us assume that the reorganization effort is 
successful because of the collaboration between the Executive 
and the Legislative branch. I hope it is. You still have the 
same situation. The focus may be better inside DHS, but you 
still have that broad spectrum of multiple agencies, each doing 
their own thing, setting their own priorities, without it being 
consistent with an overall strategy and without being 
consistent with priorities set not by individual departments 
and agencies but by the President and the Vice President of the 
United States.
    Chairman McCaul. Yeah. Good point.
    Senator.
    Mr. Lieberman. So I would say, from what I know of the 
proposal the committee is making, that it is a step in the 
right direction, because it is a step to coordination. But, of 
course, I agree with what Governor Ridge has said, that we also 
need that same kind of overarching cooperation, collaboration, 
and leadership at a Government-wide level. That is why we 
recommended the Vice President.
    Chairman McCaul. That is good.
    Let me just close by saying we have had very productive 
discussions with Secretary Johnson on this proposal.
    Mr. Lieberman. Good.
    Chairman McCaul. As with most reorganizations, we obviously 
want his buy-in on what we are doing here and collaboration. So 
far it has moved very well.
    So, I mean, I agree with you, with the overarching 
Federal--all the Federal agencies working on this need to 
collaborate, and it has to be under who is in charge in the 
White House.
    Yes, sir.
    Mr. Ridge. If I might just add, that is precisely the 
reason that some of us--and I will speak as the first Secretary 
of Homeland Security--we would like to see this committee 
have--I know it is tough for a committee Chairman and 
subcommittee Chairmen and your colleagues to give up 
jurisdiction, but it would be certainly nice if this committee 
had more complete jurisdiction and really develop the kind of 
relationship that apparently you have developed with Secretary 
Johnson, saying, we need to collaborate, we need to be on the 
same page to make this a more effective enterprise. So I 
commend you for that effort.
    Chairman McCaul. I certainly agree with that.
    Mr. Lieberman. Mr. Chairman, I just want to say the same. 
Senator Collins and I, who led the effort on the 9/11 
Commission report, thanks to a lot of support across the aisle, 
both in the Senate and working with the House, we really 
adopted most of the report recommendations. We were really 
quite successful at reforming the Executive branch. It was when 
we got to the Legislative branch that we had our problems. I 
admire you for wanting to charge the fortress again, but it is 
critically important to do that.
    I shouldn't use this parallel, but I always felt that a lot 
of the other committees that were calling on people like 
Secretary Ridge to testify were, in some sense, visiting the 
subject matter. The House Homeland Security Committee, the 
Senate Committee on Homeland Security, I mean, we live with it 
every day, and this is where the focus should be.
    Chairman McCaul. We look forward to working with you on 
that effort.
    The Chair recognizes the Ranking Member.
    Mr. Thompson. Thank you very much.
    The testimony has, indeed, been very good.
    Governor Ridge, you and Senator Lieberman have talked about 
putting somebody in charge. While I think that the Vice 
President is almost as high as you can go in terms of putting 
somebody in charge, but the practical reality of oversight by 
this committee is, can you envision the Congressional oversight 
on biodefense? Because the likelihood of a Vice President 
coming, testifying, would not be--well, it would be nice, but I 
have yet to see it.
    So tell us your thinking on that, if you would.
    Mr. Ridge. I appreciate that, Congressman.
    First of all, the other day, I counted the number of public 
paychecks I have received over my life from 7 different 
jurisdictions from one time or another. So, if you looked at my 
resume, I can't hold a job. But 3 of the most important was 
sitting up proudly as a Member of the People's House, as 
Governor of the great Commonwealth of Pennsylvania, Assistant 
to the President, and then Cabinet Secretary.
    All those experiences, particularly the 2 in the White 
House, suggested to me that, in spite of the well-intentioned 
efforts of Congressmen and Senators and think tanks and 
department heads, you need a unified effort, a cohesive effort.
    I also concluded, based on my experience in the White 
House, that the only way you really effect change--and I think 
you will all appreciate this--is if you have control over 
budgets. That is why we want to give the President the budget 
authority--the Vice President oversight budget authority.
    I think the Executive branch answers the call of oversight 
in many different ways. I think, in this instance, perhaps you 
would use the Director of Science and Technology or, more 
importantly, maybe the Director of OMB to be talking about the 
priorities. Remember, there is going to be a comprehensive 
plan, hopefully with the input of the Congress of the United 
States and other people involved in the development of the 
infrastructure.
    So I think you can, the Congress can effectively, 
effectively, meet its Constitutional responsibilities on 
oversight, because you will still have, based under that plan, 
department heads, agency heads, and OMB answerable to you. That 
is why making it--it is the oversight over a comprehensive plan 
rather than individual departments and agencies that we think 
is so critical.
    That still means that you are going to have plenty of 
committee hearings and a lot of the Cabinet Secretaries and 
Under Secretaries appearing before you. But from the Vice 
President point of view, you might have the Office of 
Management and Budget up here explaining why different funding 
streams are going to different departments and agencies.
    Mr. Thompson. Are you--Senator Lieberman.
    Mr. Lieberman. Thanks, Mr. Thompson.
    Look, you make a good point. I think maybe when you were 
out of the room briefly, I said, in some sense, we backed into 
the proposal about the Vice President being the lead for the 
Federal Government, because all the alternatives that we 
considered didn't seem strong enough.
    So you are absolutely right; we tried to get about as close 
to the President as you could get, in terms of the strength of 
the leadership and the ability to coordinate. No question, you 
would not get the Vice President up here testifying any more 
than you get the President up here regularly to testify. But, 
on balance, we felt that you still have the people under the 
Vice President who would be subject to your oversight, and the 
pluses associated with that central leadership in the Office of 
the Vice President outweighed that obvious problem with the 
proposal.
    Mr. Thompson. Thank you much.
    Dr. Cole, as you know, we have challenges within the health 
community. Can you talk about the funding challenges that you 
see in hospitals and medical schools preparing students and 
staff to identify and respond to a biological event?
    Mr. Cole. That is a great question.
    What we need to see is more of a culture change. Then, 
funding becomes more amenable.
    I had a conversation with a dean of a medical school a few 
years ago, and he said: So who should we cut in order to pay 
for more exercises and drills?--$50,000, $80,000 a year. Should 
we cut a dietician from our current needs and our current 
staff? So you face the inevitable issue of the limited funding 
resources and where the money is going to go.
    If, through the great efforts that we have just been 
hearing about, there becomes more of a consciousness about 
this, including the suggestion that I make relative to terror 
medicine being taught, there becomes a greater sensitivity.
    In my written remarks, toward the end, the very last item, 
there is a series of quotations from various students who have 
taken the course on terror medicine. They are amazingly 
consistent in their recognition. These are fourth-year 
students. They have been through most of their formal education 
at that level. They say, wow, this was a great course, not so 
much because of instruction as much as because of content.
    It has not permeated through the medical school curricula 
in many places. Certainly, it has been fairly successful at 
Rutgers in Newark, but that is not representative of the larger 
community.
    Mr. Thompson. So you say we need to get the schools to 
start changing how they look at the whole area about medical 
defense?
    Mr. Cole. Yes. I would say that a good start would be--or I 
shouldn't say a start only in this one area, but among your 
starts, go to the medical community, go to the AMA and other 
reputable organizations that represent physicians, remind them 
of the issues.
    Presumably they have all been informed about it in some 
fashion in the past, but, as you have heard, there have been 
several good reports that have come out that lie on shelves 
still without action.
    You create the culture of awareness, and then I think what 
would follow would be a pressure from below up toward the 
Government, as opposed to the Government telling them what to 
be doing.
    Mr. Thompson. Thank you.
    I yield back.
    Chairman McCaul. The Chair recognizes Mr. King.
    Mr. King. Thank you, Mr. Chairman. Thank you for holding 
this hearing.
    I want to again welcome Secretary Ridge and Senator 
Lieberman.
    I had the privilege of serving with Tom Ridge in the House 
of Representatives when I first came here. You did an 
outstanding job. I saw first-hand the job that you did setting 
up the Department of Homeland Security, which really was being 
present at the creation. Because no one really knew what 
direction it was going to take, how it could be done, and 
somehow you put it together. So I really commend you for that 
and for your service.
    Senator Lieberman, of course, you and I have been friends 
for years. I admire the great work you have done in many ways. 
Also, when you were talking about people having egos and 
committee Chairmen wanting to stand on ceremony, maybe it is a 
small thing, but I remember, when I was Chairman of the 
committee, we held a joint hearing on radicalization in the 
military, and you actually agreed to have the Senate committee 
come over to the House side of the Capitol Visitor Center, 
which I think was almost unprecedented, to have you guys 
actually come over to our side.
    Mr. Lieberman. Thank you for remembering that. I came where 
the leadership was, and you.
    Mr. King. Thank you, Senator.
    Also, I have to commend you for having the good wisdom to 
hire Dr. Carlin. She served for me when I was Chairman of the 
committee. My only criticism of her was she caused me many 
sleepless nights when she would come in with all these 
scenarios about how we could be dead before the next day. I was 
afraid that one night she was going to be right.
    But, Ellen, it is great to see you back here today.
    I just have a few quick questions.
    One, Ranking Member Thompson mentioned the fact that we 
have legislation that has not moved. One we were lucky on was 
Congressman Pascrell and I had a bill to provide anthrax 
vaccines to first responders. That did pass the House. Your old 
friend, Senator Ayotte, has it right now in the Senate, and 
hopefully it can move there.
    If you could just put in the record why it is important 
that first responders do have access to vaccines in cases of 
attacks such as the ones we are talking about.
    Mr. Lieberman. Thanks, Mr. King, Congressman King.
    So, you know, it is because they are going to be the ones 
that have to respond first. I mean, I can't think of anything 
more creative. We owe it to them to have access to the vaccine. 
We know, by their training and by their reflex, they are going 
to go to what others would shy away from, which is danger, 
because that is their responsibility. So we want them to feel 
that they have a vaccine and they are protected.
    I strongly support your proposal. Senator Ayotte, I think, 
along with Senator Booker, have a similar proposal.
    This is also not only preemptive in terms of creating this 
level of confidence among our first responders, but it is 
sensible because, as you know, the viability of some of the 
anthrax vaccine in our stocks is going to run out and it will 
be useless, and now we have an opportunity to use it in a most 
constructive way.
    So I hope your legislation moves quickly.
    Mr. King. Dr. Cole, do you have any thoughts on that?
    Oh, I am sorry, Tom. Did you want--Secretary Ridge.
    Mr. Ridge. I think you are on to something. First 
responders run to danger. If we can immunize them to the danger 
that they are running to, that is the right thing to do. It is 
good policy.
    Mr. King. Dr. Cole, do you have any thoughts? Is there any 
downside to this? Do we run any risk by having the vaccines 
available? Is there any----
    Mr. Cole. No, we certainly don't have any downside. All our 
military, especially those who are headed for the Middle East, 
are automatically required to get anthrax vaccines.
    By the way, I should say that you chaired one of the 
subcommittees at which I testified. I appreciated your 
questions and your leadership then, and I still do now.
    Mr. King. Thank you, Doctor. I really appreciate it. Thank 
you.
    We know that ISIS has used mustard gas on several 
occasions. We know the large numbers of foreign fighters who 
have gone from Europe to Syria to fight. Many of them will be 
going back.
    Is there any way we can protect ourselves in a greater way 
from the threat of mustard gas or other biological agents 
coming to the United States from these foreign fighters or from 
other sources in the Middle East?
    Tom. Or, actually, any of the three who want to jump in.
    Mr. Ridge. You know, this whole refugee problem creates 
potential unintended consequences for the broader community. 
Those leaving Syria and Iraq in the face of ISIS and the notion 
that some sympathizers are actual members may be among that 
group, I think there is a risk attendant to it. I don't think 
there is any question about that.
    I also think that--and this is Tom Ridge's opinion--the 
world has ignored the reality of what is going on in Syria, the 
extermination of 250,000 Syrians and the mass exodus of 
hundreds of thousands, if not millions. We still have not done 
anything about the actual cause of the problem. We are 
obviously not going to get around to that for a while.
    So I think we are going to have to accept that some of the 
risk. Hopefully, there will be some kind of screening protocol 
that we could come up with before they enter the country, just 
as we did with people traveling in from those countries that 
were affected by Ebola.
    It is a thorny problem, and I don't have the best answer to 
it. But I do think that we just have to accept a certain amount 
of risk and, hopefully, under a protocol that would allow 
admission of some.
    Mr. Lieberman. Congressman King, you ask, really, a big 
question, which is, how do we act to prevent terrorists from 
carrying out a bioterrorist attack here? Really, it goes to all 
the elements of the war on terrorism.
    I mean, again, I worry that ISIS has so rapidly built this 
state that it has created by going beyond what previous 
terrorist groups did, I mean, being more inhumane. Therefore, I 
would think that a bioterrorist attack would be something 
that--and we know this from what the Chairman read--something 
they would want to carry out.
    So it requires everything that we have talked about. I 
mean, this is the classic ``we should fight them there instead 
of here.'' In other words, we should do everything we can to 
eliminate this nascent state that they have created in parts of 
Iraq and Syria. It requires an enormous commitment in terms of 
intelligence.
    They are drawing on a more intelligent, in a different 
sense, population that may come to their ranks with some 
specialized experience in biology that will help them to gain 
this capacity. All that we do to try to keep people out of this 
country who are coming in for nefarious terrorist purposes--and 
then the enormous challenge of how do you stop a lone wolf or a 
small group of people who are already inside America from 
developing this capacity? It requires everything that all the 
DHS, FBI, intelligence community, et cetera, are doing.
    So the bottom line that I think our panel came away with 
with a sense of urgency is that the threat of a bioterrorist 
attack is real, and the need to up our fight here and our 
capacity to prevent, let alone respond, but to prevent, is 
urgent.
    Mr. King. Dr. Cole.
    Mr. Cole. Well, I certainly agree with both Governor Ridge 
and Senator Lieberman's comments.
    I would only add that I have no personal information about 
what I am going to say, except that David Cameron, the Prime 
Minister of the United Kingdom, recently said that his 
counterterrorism expert--presumably it is MI5--said that they 
estimate that 2 out of every 100 of these refugees probably 
have a relationship--a past relationship, I hope, but maybe a 
current one--to al-Qaeda or another kind of terrorist group.
    That is a phenomenal number. You are talking, then, if that 
is even near-truth, of thousands of these people coming in with 
nefarious backgrounds. I am not sure how well the screening 
would go. I don't know the basis on which those estimates were 
made, but it is worthy of at least considering.
    Mr. King. Thank you, Doctor.
    Thank you, Senator.
    Thank you, Governor.
    Chairman McCaul. The Chair recognizes Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank our panel today.
    Particularly, it is great to see you again, Secretary Ridge 
and Senator Lieberman. I appreciate your extraordinary work on 
this and your commitment to the country and all that you have 
done in public service. We are grateful for that.
    Welcome to you also, Dr. Cole. Thank you for your service, 
as well.
    So I, as you know, have spent many years on this subject as 
a founding member of the Homeland Security Committee and also 
having had the privilege of chairing the Subcommittee on 
Emerging Threats, Cybersecurity, and Science and Technology 
that looked at it, did a deep dive on things like bio threats 
and pandemic influenza.
    I want to recognize also and thank your two staffers who 
helped to prepare this report: Asha George, who served as my 
staffer when I chaired the subcommittee; and Ellen Carlin, as 
well. I thank them both for their extraordinary work and 
commitment to this issue.
    This issue really hit home for me when, in an informal 
conversation I had with a former high-ranking official from the 
Pentagon, and I was asking him to quantify, you know, how much 
are we talking about this--say, a biological agent. How much of 
it would it take? Are you talking about tanker trucks full of 
it to have, you know, a wide-spread impact? Or is it something 
smaller than that? You know, without hesitation or very much 
thought, he said, ``No, it wouldn't take much at all.'' In 
fact, to quantify it, using a certain type of biological agent, 
which I won't mention, weaponized and aerosolized in some size 
of a fire extinguisher, sprayed from the top of a tall 
building, it would create a plume of about 50 miles wide, 100 
miles long. Untreated, there would be a 90-percent death rate.
    So that is riveting and terrifying, in many respects. I 
hope we can redouble our efforts to get this right, to prevent 
or be better prepared and protected against such a threat, 
because it is of great certainty.
    So, Senator Lieberman and Secretary Ridge, I share my 
colleagues' concerns about coordination being a top concern, 
one that is, of course, highlighted as the first recommendation 
of the blueprint.
    In the narrative, you discuss the existing office of the 
U.S. Coordinator for Prevention of Weapons of Mass Destruction, 
Proliferation, and Terrorism, created under the 9/11 Act. You 
point out that Congress, ``has not forced the issue'' of 
ensuring any President fill this position. We certainly have 
ways that we could apply pressure, fencing off funds and such, 
to really push this harder.
    Is this a problem with the construct of the office or with 
Congress? Could an empowered, Senate-confirmed official within 
the Executive Office of the President provide the needed 
coordination?
    Mr. Lieberman. Well, we looked at that. It is not, clearly, 
our first choice. That is why we ended up recommending the Vice 
President. But if that office was filled, we would at least 
find out whether it could do the job. In other words, it is a 
respectable alternative.
    Mr. Langevin. I don't think it has to be mutually 
exclusive, Right? I mean, we could do both.
    Mr. Lieberman. We could do both.
    Mr. Langevin. As we all know, the Vice President is going 
to have many things on his plate.
    Mr. Lieberman. Right.
    Mr. Langevin. So to have an additional individual who was 
solely responsible, as well, and focused on this and works 
hand-in-hand with the Vice President.
    Mr. Lieberman. Yeah, absolutely. It is a very good point, 
Mr. Langevin, that this person, if we fill that position, with 
some pressure from Congress, could obviously, essentially, work 
under the Vice President and, incidentally, going back to Mr. 
Thompson's concern, would be subject to the oversight of 
Congress.
    Mr. Langevin. Right.
    So, to the panel, last week, the FDA approved the first 
viral-based cancer therapy. A reengineered herpes simplex virus 
can now be used to target specific melanoma cells while leaving 
healthy cells, healthy tissues unharmed.
    While this advance shows great promise for medicine, what 
does progress in synthetic biology mean for our future 
biodefense? When, as pointed out in the blueprint, the 
capabilities required to produce pathogens de novo have become 
increasingly available, will existing defense techniques based 
on a single pathogen--say, anthrax--become obsolete? How do we 
prepare for this eventuality?
    Mr. Ridge. I am not quite sure.
    First of all, Congressman, before I try to respond to 
that--and I mean try, feebly, to respond to that very technical 
question--let me say that, prior to appearing before you today, 
I read the report that you and then-Chairman Thompson issued 
back in 2009 with regard to pandemics. There is a long list of 
concerns that you raised nearly 6 years ago. Unfortunately, 6 
years later, we issue this blue-ribbon report, and it probably 
sounds like an echo in some of the areas of the concerns that 
you expressed. So we are grateful for the continuing commitment 
of this committee to do something different, profoundly 
different, than has been done before.
    I don't have the technical capability to respond to that 
question. I do know, however, that during the course of our 
hearings, and not only in Washington but around the country, 
the notion of research into synthetic antibiotics as being a 
21st-Century platform to deal with the threat of existing and 
future pathogens is something very much that both the academics 
as well as the researchers feel has enormous potential.
    It is one of the reasons we suggested that, as we are 
looking at how we use these dollars in the future, that we 
engage the research community, as well as the private sector, 
to advance this notion as aggressively as we possibly can.
    Mr. Langevin. Thank you.
    Dr. Cole, did you have any comment on this?
    Mr. Cole. Well, if I may slightly veer from this, a comment 
that you made before about what quantity of biological agent 
would be required, we have lived the experience here, which I 
hope is a lesson, regarding the anthrax letters.
    Less than a teaspoon of anthrax spores, powder, were in as 
many as 6 or 7 letters. We never quite recovered all of them. 
We did recover 4, and, therefore, we know almost for sure what 
would have been in the other couple. That is a total quantity 
that would allow you to place all of it in your hand and still 
have room for more.
    That experience, as you will recall, tore up the East Coast 
with worry, concern. Yes, as we say, ``only'' 22 people became 
infected, but 5 of them died.
    Had this powder, had this anthrax not been subject to the 
capabilities of an effective antibiotic to save some lives--in 
other words, had the strain been developed as antibiotic-
resistant--we could have expected many, many more deaths.
    Furthermore, there were more than 30,000 required 
prophylactic treatments to people who presumably had been 
exposed. So just from a handful of letters, if you have more 
than 30,000 people exposed and you then have the real witch's 
brew of an effective organism that can't be treated readily, 
you can imagine the horrible results. That is based on our own 
experience.
    Mr. Langevin. Yeah.
    Mr. Ridge. If I might add, it wasn't a contagion. I mean, 
just think about this. If anthrax, if the condition was 
contagious and could be passed on from individual to 
individual, God only knows how many people would have been 
affected or infected by the 5 people that ultimately died and 
the dozens that were infected but fortunately there was an 
antibody that we could deal with it.
    Mr. Langevin. Yeah. All important points. Thank you for 
making----
    Mr. Lieberman. Mr. Chairman, if I can say briefly--and 
maybe we will come back to it--I mean, one of the areas that we 
focused on was the whole problem about medical countermeasures 
here, both vaccines and therapeutics, the problem being that, 
in so many ways, we are--because there are incredible advances, 
as you said, Mr. Langevin, in your opening statement about this 
question, in pharmaceutical science. Yet there is not an 
obvious market here. The market doesn't function as it normally 
would, because, whereas you talked about a cancer drug, I 
believe, we don't know whether there is going to be an anthrax 
attack or a pandemic of one kind or another.
    So we have tried through BARDA to incentivize 
pharmaceutical companies to get involved. I would say for 
myself, I think we felt BARDA is doing a pretty good job at 
doing that. But we still haven't really figured out a way.
    It is a real shortcoming to create, through some Government 
involvement, incentives for the great pharmaceutical sector of 
our economy to devote some of its enormous research capability 
to these real problems. God forbid there is a contagious 
attack, an attack of a contagious agent, or a pandemic. We are 
going to be just running around crazily to come up with a 
therapeutic to deal with it. Better that we do it beforehand, 
of course.
    Mr. Langevin. Good point. I hope we can get out ahead of 
it.
    Thank you.
    Chairman McCaul. The Chair recognizes Mr. Duncan.
    Mr. Duncan. I want to thank the Chairman.
    I am sporting a beard for No-Shave November in support of 
prostate and pancreatic cancer awareness month. I would ask 
everyone to consider supporting that, as well.
    Chairman McCaul. Does that mean I have to grow a beard, as 
well?
    Mr. Duncan. Well, I----
    Chairman McCaul. Oh, okay.
    Mr. Duncan. I am not alone. There you go.
    I want to thank you gentlemen for the report. I think, you 
know, your taking an opportunity to do that outside of the 
normal channels was important.
    I want to also encourage you to think about, the next 
opportunity to do something would be with the threat of EMPs. 
Hardening our grid is important. Whether it is man-made, 
electromagnetic pulse created through a nuclear weapon, or 
whether it is naturally occurring, our grid is unsecure, and it 
could be detrimental to the country. As part of the EMP Caucus, 
I would encourage you guys to look into that.
    I want to shift into the issue with our border. I notice in 
the report we don't talk about our unsecured border.
    We are witnessing right now huge migrations across Europe, 
where they have open borders, and the countries are having to 
deal with it. We saw in the United States a huge migration of 
unaccompanied children. So migration patterns can shift, and we 
can see folks come into the United States across our unsecure 
border.
    With them they could bring infectious diseases, with them 
they could bring biological devices, and with them they could 
bring radiological devices. If they are able to bring drugs and 
they are able to come across undetected and enter our country, 
we don't know who is here and we don't know what they have 
brought or could bring with them.
    So, as former Secretary of Homeland Security and former 
Senator, how would you address our unsecured Southern Border 
with regard to biological weapons and National defense?
    Mr. Secretary.
    Mr. Ridge. Well, first of all, I think Congress and this 
administration have really focused on deploying more people and 
more technology, which I believe was long overdue. I remember 
way back when, in 2002 and 2003, when we started the 
Department, the number of border agents we had there and the 
kind of technology we deployed down there, and there has been a 
significant and very positive change in that regard.
    You may be probably talking to the wrong person. I happen 
to believe that, until we move down multiple paths and come up 
with a comprehensive immigration platform dealing with the 
legal ingress and egress in and out of this country, as well as 
securing the border, we are still going to be talking about 
this 5 or 10 years from now.
    I think the capabilities that we have--I have often 
wondered whether or not we are deploying the best technology 
available down there. I am going to leave that to you to make 
that determination. Obviously, it is very, very important to 
you.
    I think we have plenty of manpower down there, but I am not 
sure we have quite the kind of arrangement or agreement or 
collaboration with our friends in Mexico to help us deal with 
that issue. I am always interested in adapting more technology, 
the use of drones, as well as a tactical response to the kind 
of situational awareness that sensors give us when people are 
trying to penetrate the border.
    One of these days, I am going to learn to hit--it says, 
``Talk,'' and it is not red--I am going to hit it so you can 
hear me. But hopefully I spoke loud enough so you could get my 
view.
    With regard specifically to the border, I think we need to 
continue to do everything we possibly can to make sure that the 
law is enforced. That doesn't necessarily, in my judgment, mean 
more bodies, but it may need more and better technology and, 
certainly, far more cooperation from the Mexican Government to 
assist us.
    Mr. Duncan. Right.
    You know, we are seeing the use of drones to deliver drugs 
across the border--very undetectable. I mean, heck, we couldn't 
even detect a gyrocopter coming into the Nation's capital 
airspace. So, if someone wanted to deliver a biological weapon 
into this country, it would be fairly easy if we can't detect 
them bringing drugs in. So I think there are a lot of different 
things to consider when you talk to border security.
    Mr. Ridge. Well, I think you are absolutely right, 
Congressman. I think the reality is, I think, given the forces 
and the nature of globalization, you could potentially have an 
individual infected by contagious disease coming in lawfully 
through New York City, and, given the nature of the infection, 
we wouldn't know about it until it emerged either in that 
individual, in symptoms around that individual.
    That is why, whether it is the border and you are dealing 
with illegals or it is those who are traveling in and out of 
the United States lawfully, we need to be preemptive in 
anticipation that one or the other or both might occur, and we 
are not prepared for that pathogen in our midst.
    That is why, you know, it is really a defensive, preemptive 
approach we are asking this committee and the Congress and the 
President to take. Because that penetration through the border 
or just somebody passing through our gateways, you know, past 
the Statue of Liberty, could bring in a pathogen that could be 
infectious and potentially cause us enormous problems.
    So I think the concern, whether it is the border or 
elsewhere, is legitimate.
    Mr. Duncan. Yeah.
    We have been very successful in knocking back a lot of 
these diseases that are now starting to come back on the scene. 
Do you think Europe is prepared for what they may see with this 
mass migration?
    These folks aren't screened coming into Europe. There is a 
possibility, with Schengen and with open borders and with visa 
waiver, that down the road those folks may end up in this 
country through normal travel patterns.
    So I would just ask both of you: Do you think Europe is 
prepared? Is there a possibility for infectious diseases to 
come in that way?
    Mr. Ridge. I don't think the broader global community is 
prepared for the magnitude of infectious diseases. We are ill-
prepared to respond to those with which we were familiar.
    Congressman, when the President asked me to come into the 
White House, I was give the list of pathogens that we were, as 
a country, concerned about at that time, and Ebola was among 
the list. Now, that was 2001. Fast-forward to 2014, and you can 
draw your own conclusions as to whether or not, having 
evidenced a legitimate concern regarding this pathogen, whether 
or not 13 or 14 years was sufficient time for all the parties, 
interested parties, to take effective deterrent action and be 
prepared in case there was an outbreak of Ebola.
    So I don't think the World Health Organization is as 
prepared. I mean, we encourage us to provide leadership as we 
engage in that organization. There are some other 
recommendations that we make with regard to strong, positive 
American leadership among international organizations. Because 
we don't believe generally--and I am going to defer to Dr. Cole 
on this--that the world writ large is really well prepared to 
deal with a major pandemic.
    Mr. Duncan. Right.
    Mr. Lieberman. That is our, actually, 33rd last 
recommendation, that after everything we recommended that we 
try to do here at home to deal with the bio threat, that we 
really need to assume an international leadership role, perhaps 
through the World Health Organization but, really, probably on 
our own, to coordinate with other nations around the world.
    Because, forget for a moment refugee flows; people are just 
moving around so much more than they ever have because of the 
ease of travel, and they are carrying contagious diseases with 
them.
    I mean, I remember reading a book a while back about the 
impact of the Spanish movement from the Iberian Peninsula to 
what we now call Latin America and the devastating effect it 
had on the indigenous populations because they had no 
resistance to----
    Mr. Duncan. The Native Americans in this country----
    Mr. Lieberman. Yeah.
    Mr. Duncan [continuing]. Impacted by Europeans.
    Mr. Lieberman. Yeah. Exactly.
    So, honestly, to answer your question, is Europe ready for 
the massive refugee flow that is occurring now, I think even 
though Europe has, obviously, a very well-developed public 
health system and all the rest, the answer has got to be: No, 
they are not ready.
    It is among the various urgent responses to this totally 
unexpected, massive refugee flow, which is not stopping. I saw 
something last week that an average of 9,000 people landed in 
Greece every day last week.
    Mr. Duncan. Right.
    Mr. Lieberman. I mean, the scope of it--and some of them 
will end up coming here, and we have to be ready to deal with 
that reality and make sure that they don't bring disease with 
them.
    Mr. Duncan. Thank you very much.
    I am out of time, but we have seen a changing world, Mr. 
Chairman, and that is why this hearing is so important. I yield 
back.
    Chairman McCaul. Thank you.
    The Chair recognizes Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    On page 6 of your testimony, you indicate that the 
biological threat is already out there, that it is too late to 
get ahead of it, but we can still reduce our vulnerabilities 
and get ahead of its impact.
    Is this based on known specific biological threat, or is it 
the capacity to produce a weapon without detection?
    Mr. Lieberman. I am going to start the answer.
    That is a good one. I mean, I will read from it: ``The 
biological threat is already out there. It is too late to get 
ahead of it,'' which I think means to stop it. ``But we can 
still reduce our vulnerabilities and get ahead of its impact.''
    My answer is that both of the possible explanations for 
that conclusion are correct. I mean, that is why it is so real 
and so threatening. Both of those that you gave.
    Mr. Ridge. You know, I think one of the challenges will 
ultimately be attribution, if we are ever confronted by an 
intentionally-introduced pathogen. We know that countries such 
as Russia and China and Syria and Iran and North Korea maintain 
R&D centers for both offensive and defensive capabilities 
around biological challenges. So we know that that exists.
    We also know that there is a predisposition within the 
terrorist community. I think Dr. Cole referred to al-Qaeda 
experimenting with animals with anthrax. They had laboratories 
doing it. A laptop, recently collected, indicated that ISIL 
has, certainly, the intent. If you control territory and you 
have access to information, you have money to buy the science--
so the threat is real. We don't want to be breathless about it. 
We have to accept the reality that it exists today, and we have 
to be preemptive in preparing.
    As the 9/11 Commission report suggested, what the country 
lacked pre-9/11 was a failure of imagination. It is not 
difficult to imagine, given the globalization of travel and 
people in the chaotic world, that a pathogen willfully 
introduced by someone or by Mother Nature would have a dramatic 
effect on all of us.
    Mr. Cole. I think it is important to break this down in the 
following way: In none of our lifetimes or our grandchildren's 
lifetimes will infectious disease be entirely eliminated. As 
long as there are agents that can cause disease and cause 
fatality, there will be some who would want to use that 
capability for bad reasons.
    What our goal should be, as opposed to eliminating--which 
is impossible to do--this whole notion of infectious disease, 
whether natural or even man-made, is to disincentivize those 
who would want to use these materials for unsavory events. We 
have that capability to at least, by showing the preventative 
capabilities, discourage a terrorist from wanting to use this 
weapon, only because it would be a waste of time if there is 
enough evidence and enough preventive measures in place.
    So I think that is another good argument for the 
recommendations, because of the overlap, the unusual overlap, 
that you take care of the terrorist possibility and the reasons 
that they would be doing it; you are also helping to prevent 
disease in general, which is a good thing.
    Mr. Higgins. So, absent Vice Presidential leadership in 
this regard that is called for by your committee, of the 12 
Federal agencies that are involved in the biodefense field, you 
know, what is the most logical agency leadership there? Is it 
CDC? Is it----
    Mr. Lieberman. Well, apart from the reference before to 
this unfilled position of a coordinator, to me--and I am 
biased, but I am together with a co-chair who shares my bias. 
It seems to me we have a Department of Homeland Security. The 
bioterrorist threat is a homeland security threat.
    As you know, DHS has been organized and reorganized to 
respond to disasters, including the critical role that FEMA 
plays. So I would say that if it fell back to--again, we have 
our list of first choices for this, but I would say it would be 
the Department of Homeland Security.
    I mean, one thing that was lacking last year, I just want 
to say it briefly. My reaction--I think it was broadly felt. It 
wasn't clear who was in charge in response to the Ebola panic 
and outbreak. Actually, some of the statements made by the 
people at CDC seemed a bit odd, actually. I felt like, you 
know, they didn't instill confidence. I guess I would put it 
that way.
    So I think we are better-prepared now as a result of that 
unfortunate circumstance, from which we came out remarkably 
well, fortunately. But to create that central leadership. I 
think DHS is the natural place.
    Mr. Higgins. Okay. All right.
    I yield back.
    Chairman McCaul. Mr. Barletta is recognized.
    Mr. Barletta. Thank you, Mr. Chairman.
    Governor, Senator, Dr. Cole, thank you for your work.
    Governor, I noticed that you provided a list of potential 
oversight hearings for Congress to take up. This includes 
suggestions for the House Transportation and Infrastructure 
Committee.
    I am Chairman of their Subcommittee on Economic 
Development, Public Buildings, and Emergency Management, which 
has jurisdiction over FEMA and the Federal management of 
emergencies and natural disasters.
    FEMA is responsible for the National Response Framework, 
which provides how the National Incident Management System is 
intended to be used in response to disasters and emergencies, 
regardless of cost.
    Now, FEMA is the Federal Government's crisis manager, as 
you know, which is why, for example, the President put FEMA in 
charge of coordinating Federal resources and assistance during 
the Ebola response.
    So I think your points on biosecurity and cybersecurity are 
very important, as the Federal Government will likely have to 
deal with the consequences of any bio or cyber attack.
    Can you expand on this more for us? What are we facing in 
terms of the potential hacking of lethal virus information? Why 
is this so important? What would the consequences be if 
individuals, groups, or countries which clearly don't share our 
values and have malicious intents were able to get into some of 
these databases?
    Mr. Ridge. We very much appreciate the question. I, for 
one, believe that--thank you.
    Mr. Barletta. The third time is the charm.
    Mr. Ridge. No, the fourth time is the charm, perhaps. We 
will see.
    There are five theaters of war: Air, land, sea, space, and 
there is a fifth theater going on right now, and it is cyber. I 
don't think we should be under any illusion, that it is going 
on 24 hours a day, every day of the year. We know who the 
actors are, we know their motivations, and we know the outcomes 
that they would like to achieve.
    With the emergence of the terrorism threat and the ability 
of certain elements to actually control territory, buildings, 
build cyber capacity--I mean, let's not forget that it was the 
Syrians that hit our financial institutions a couple years ago 
simply with a denial-of-service attack. So a lot of our enemies 
out there, including terrorist organizations, have the capacity 
to at least attempt to exfiltrate critical information.
    If you were going to try to build a biological weapon or 
somehow genetically change its composition, I suspect that 
there are plenty of--there are; not suspect--there are plenty 
of research institutions, both public and private, that have 
that kind of intellectual property that, if secured in the 
hands of the wrong people, could create serious problems and 
untold consequences for us.
    So the merger of the cyber world and the intellectual 
property and research dealing with pathogens is something that 
we are very, very concerned about.
    Mr. Barletta. Yeah. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCaul. I thank the gentleman.
    Before I recognize Mr. Keating, I have a commitment I have 
to go to, but I just want to thank you for this report. We will 
look at it very seriously in terms of legislation. I want to 
thank you for your service again.
    Also, on the jurisdiction issue, I want to, again, raise 
how important it is for Congress to fix this. It is the only 
recommendation not fulfilled, as you know, by the 9/11 
Commission recommendations. I think as the 9/11 Commission came 
back together and reconvened, they stated that Congress would 
be to blame, if there was another 9/11-style attack, partially 
to blame, for not fixing this problem.
    So it is something that I think, not just as Chairman of 
this committee, but that the Congress as a whole has to do the 
right thing for the Nation and fix, again, this jurisdictional 
problem.
    So I look forward to working with you the next year, as we 
go forward into the next Congress, to remedy this problem that, 
quite frankly, should have been fixed from Day 1. But, 
recognizing all the problems, the political compromise from the 
beginning, that we need to fix it, I think, once and for all.
    So let me apologize for having to leave. But, again, thank 
you for your service and the report and your testimony here.
    Mr. Lieberman. Thank you, Chairman. Thanks for convening 
the hearing. Thanks for your leadership.
    As I said earlier, we are going to stay together, and we 
are here to support any of the work that you want to do in this 
subject area. Because the danger is clear, and it is present.
    Chairman McCaul. Thanks.
    I leave you in good hands with the first female combat 
pilot, Ms. McSally from Arizona.
    Oh, the Chair recognizes Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    I am going to try something different. I am going to just 
put out three threads of discrete questions and, for the sake 
of time, have you react to those things, maybe drilling down on 
some things we have talked about.
    The first one, you know, there are so many challenges 
already in our intelligence communities--coordinating, sharing 
information. We are getting better at it, I believe, but we 
have commented on severe fragmentation of how we respond to 
this.
    First area would be, you know, we are dealing the FBI, NSA, 
even the CDC, all that information in terms of prevention, 
investigation, response. How much more difficult is it, this 
fragmentation, for the intelligence community to share 
information? That is important, because you can't have one 
without the other.
    No. 2, you know, the greatest threats we have here are, it 
has been told to us over the past few years, home-grown 
violence extremists as well as domestic terrorists. The use of 
social media by groups like ISIL and even the easy 
applicability of how to make a bomb with al-Qaeda affiliates 
has presented problems.
    Second question: How easy through the social media is it to 
translate the information necessary to go forward with some of 
these bioterrorist attacks? How easily can that be done through 
the social media? What threats does that create?
    The other one we have touched on but haven't really talked 
on at any length is the threats, you know, through animals, a 
bioterrorist attack. That means, you know, not just the harm to 
the animals themselves, but it also means threats to our food 
supply and the transferability of these diseases through 
animals to humans.
    So those are the three questions: The intelligence issue; 
home-grown extremists or domestic terrorists; and the third 
one, the threat through animals.
    Mr. Ridge. Do you want to go ahead?
    Mr. Lieberman. Well, I will start. Thanks. That is quite a 
menu. Unfortunately, each of them requires a good response.
    I am going to go to the social media because, you know, I 
learned a lot about biological threats in my work on this 
before on the Homeland Security Committee in the Senate, 
overcoming my previous ignorance in areas of science. But it 
seems to me that if you can put instructions up on social media 
about how to make a bomb, you can do the same--though it is not 
easy, but--for how to weaponize a biological threat.
    The other danger here is that, in the overall campaign of 
radicalization that Islamist extremist terrorist groups carry 
out now every day, every hour on social media, that they will 
engage the commitment and attention of somebody who already 
brings this technical expertise with them. We know that this 
has happened in the past in various ways.
    So, look, we do a lot to try to counteract this. That is a 
subject that we could hold a separate hearing on. But that work 
has to continue.
    You know, I will say that we decided, in trying to make 
this threat clear, we started on page 1 of this report with a 
scenario, a kind-of virtual scenario, and it was of a joint 
Congressional hearing, I think we said, 9 weeks after a 
bioterrorist attack on the country that killed over 6,000 
people. It started with aerosol distribution, but it also 
included, I would call it poisoning, infecting animal stocks 
with a contagious disease that then went to humans.
    So--this goes to your third--this zoonotic threat is much 
more real.
    Now, some of it, of course, beyond the bioterrorist threat, 
is naturally occurring. I mean, last year, in the avian flu 
crisis, almost 50 million poultry, chickens, were culled, 
euthanized. Fortunately, that didn't cross over to the human 
population, but we don't know that the next strain of avian flu 
won't.
    How did that get here? Talk about immigration. Migratory 
birds. So part of this is actually tracking migratory birds. As 
we said, hard to believe that we don't have a standardized 
comprehensive list in relatively real time of the outbreak of 
diseases in our animal populations, including those, 
particularly, that will transfer to humans and----
    Mr. Keating. Yeah.
    Dr. Cole, I was just curious if you could talk about that, 
expand on the animal----
    Mr. Lieberman. Good.
    Mr. Keating [continuing]. Side of it.
    Also, you know, with encryption, with the social media, and 
the challenges we have with that, this becomes even a greater 
threat. I don't know if Dr. Cole has any knowledge. Is it 
easily transferred, as to how to manufacture some of these 
bioterrorism diseases, through social media? Can you instruct 
someone to do that? How easy is that? Did you do any research 
on that?
    Mr. Cole. Okay. I can give you a less-informed response 
about zoonotics than I can about social media transfer. But the 
zoonotics, clearly, are a problem. A lot of the diseases that 
humans suffer from had origins in various animal species: 
Monkeys, bats, birds. So there is no question that that could 
pose a danger. I couldn't give you a solid answer on the 
comparative dangers from one versus another.
    Social media, very clear. We are all pioneers in this. How 
long has social media been out there as a globalizing force? 
Twenty years? Ten years? Yes, there are awful things on social 
media, awful things on the internet. When I say ``awful,'' I 
mean in the full, broad sense of it, from debasement and 
indecency, character assassinations, and, of course, 
instruction by some people.
    Some of the Islamic terrorist groups have publications, in 
effect--one is called Inspire--by I think it is the Islamist 
groups, who then give all kinds of instructions, including in 
English, an encouragement that Americans be assassinated. They 
don't say how.
    So whatever----
    Ms. McSally [presiding]. The gentleman's time has expired. 
If we could wrap it up.
    Mr. Cole. Oh, yeah. Okay. So the shorthand is: Whatever you 
want to see that is bad, as well as good, you can find on the 
internet. Sorry.
    Mr. Keating. Thank you.
    I yield back.
    Mr. Ridge. Yeah, could I just, if you don't mind, 
Congressman--you raised----
    Mr. Keating. On the intelligence issue?
    Mr. Ridge. Yes, I want to talk a little bit about that.
    Madam Chairman, I would like the record to reflect that the 
``talk'' button was on.
    Ms. McSally. Great. But his time has expired, if you don't 
mind.
    Mr. Ridge. Thank you very much.
    Ms. McSally. Secretary Ridge, yeah, he is out of time. So, 
if you don't mind, we are going to move on. We can follow up on 
that if you would like, but----
    Mr. Ridge. Sure.
    Ms. McSally. Great. Thank you.
    The Chair now recognizes Mr. Clawson from Florida.
    Mr. Clawson. We look alike, so----
    Ms. McSally. Yeah. Exactly.
    Mr. Clawson. Thank you all for your service, for coming. 
You know, I may ask a question or two that could be tough, but 
your service to our country far surpasses anything that I have 
ever done or will do, and I acknowledge that and humbly 
appreciate what you have done for our country.
    I came back in to the country--in my private-sector 
experience, I was in India, and I got nicked by the wrong 
mosquito. So, then, a week later, I am back in the States. I 
had a fever, went to a hospital that you all would have all 
heard of, not in my district. Think it is malaria, think it is 
this, think it is that. Never did get it until I saw a 
specialist: Dengue fever. Never came up on the map. 
Chikungunya, by the way, Mr. Lieberman, was never even talked 
about.
    Mr. Lieberman. Right.
    Mr. Clawson. Then I read the report here that was, I think, 
the last report by WMD that kind-of gives the status of our 
health infrastructure with respect to being ready for these 
kind of threats. If it is large-scale contagious disease, we 
get a ``D'' across the board. So my personal experience 
coincides with the last report.
    So I say to myself, we are not prepared here. We seem to 
understand the situation, right, that we are not prepared? It 
feels like we have a strategy to kind-of move where we need to 
get. But, in terms of execution, we are not even close. Lots of 
organizations and companies fail because they make wrong 
strategic decisions, but I think it is even more common that 
organizations, companies, countries fail because of lack of 
execution.
    How do we execute? Our infrastructure is not owned by the 
Government, except maybe on the border, but certainly not the 
health care infrastructure. It is all over the place.
    Mr. Ridge, you talked about being unfocused up here, much 
less you have these assets all over the place. We can talk 
forever about problem diagnosis or strategy, but if we can 
never execute, we are still going to be unprepared. It feels 
like that is where we are.
    Am I right or am I wrong here? If I am right, how do we 
execute? How do we execute?
    Mr. Lieberman. Well, I would just say quickly that you are 
absolutely right. That is one of our biggest conclusions. We 
have all these specific recommendations, but, in the end, 
unless there is somebody to coordinate this and put together a 
biodefense strategy, then all the specific recommendations, any 
existing programs are not going to work.
    I mean, we concluded--and this is a summary statement--that 
we are spending too much on some things and not enough on other 
things.
    You know, just to go back to a recommendation Dr. Cole made 
in response to something you said, Congressman, we are not 
utilizing the hundreds of thousands of health care 
professionals who are out there every day--doctor, nurses, 
emergency responders--to be aware of the potential for an 
infectious disease or a biological threat.
    Mr. Clawson. Given our structure, organizational ownership 
structure, or lack thereof, how do we do that? Because if you 
don't influence the assets on the ground, you cannot execute, 
correct, Mr. Lieberman?
    Mr. Lieberman. Correct.
    Mr. Clawson. So how do we influence folks that we don't 
have operational control over so they can save lives? I don't 
know the answer, but I know we don't have enough influence to 
make it happen.
    Unless you are going to disagree, Mr. Ridge.
    Mr. Ridge. No, I think you are absolutely right.
    But I think you have to take a step before you even worry 
about execution. It is no accident that we talk about a 
blueprint. My notion of blueprints is you take a look at it and 
you are trying to connect the various pieces of infrastructure 
to get a completed package.
    To your point, one, you need a strategy, you need a 
blueprint. Because there are multiple, multiple groups, 
multiple State, Federal, local, private--you have identified 
all the groups. Everybody is doing their own thing because they 
have been given specific tasks. Whether or not those tasks 
align themselves with the strategy we don't know, because, as a 
country, we don't have a blueprint around which we would build 
out strategies.
    Until you have that strategy and you set priorities and 
then you fund those priorities consistent with the National 
strategy or the blueprint, you are going to have well-
intentioned but probably redundant and less effective 
capability, preemptive capability. That is precisely why we 
chose the word ``blueprint.''
    There are a lot of well-intentioned people out there doing 
the right thing, but whether or not it--in terms of what we 
need as a country--look, I am going to tell you as a Cabinet 
member, I want to get as--when you get to budget, you have 
responsibilities and jurisdictions and programs that you are 
going to do everything you can to get the sufficient funding in 
order to execute those responsibilities.
    But HHS would have biodefense responsibilities. DOD has 
them. Eleven or 12 departments are going to have them. Unless 
there is a blueprint, a National strategy, and funding is 
allocated consistent with a plan, with a blueprint, you are 
going to have the effective execution that you are talking 
about.
    Mr. Clawson. Thank you. Let's go.
    Mr. Lieberman. Let's go.
    Ms. McSally. Thank you.
    The Chair now recognizes the Ranking Member on the 
Subcommittee on Emergency Preparedness, Response, and 
Communications, Mr. Payne from New Jersey.
    Mr. Payne. Thank you, Madam Chairman.
    Governor Ridge and Senator Lieberman, it is very good to 
see you once again. And----
    Mr. Lieberman. Good to see you.
    Mr. Payne [continuing]. The work that you have done with 
respect to Homeland has really created the infrastructure that 
we try to build on now. So we appreciate all the work that you 
have done for this Nation.
    Mr. Lieberman. Thank you.
    Mr. Payne. Governor Ridge and Senator, the report that you 
created is critical of two programs administered by Department 
of Homeland Security in the biodefense mission space: BioWatch 
and the National Biosurveillance Integration System.
    Ms. McSally and my Subcommittee on Emergency Preparedness 
have a lot of oversight and have done a lot of oversight with 
respect to those two programs.
    How much time would you give the Department to get these 
programs on the right track?
    Mr. Ridge. Well, first of all, I think there has been 
recognition by Secretary Johnson that BioWatch is not as 
effective as it needs to be. I think, if my recollection is 
correct, my information is correct, there was supposed to be 
BioWatch III, and he terminated it because he knows it is not 
effective.
    NBIS is not as effective as it needs to be simply because 
the information that should be provided by other agencies and 
departments to help build out that total situational awareness 
has not been made available. Listen, I understand that, but 
somebody has to hit the ``send'' button to send the information 
to DHS so they can paint a broader situational awareness 
package to send out to all those who are interested.
    So NBIS ineffectiveness really requires more collaboration 
and cooperation with the other agencies, which speaks to the 
siloed nature of biodefense writ large and one of the reasons 
we think it has to be elevated to the White House, to the Vice 
President.
    BioWatch--listen, Secretary Johnson is a very able, 
dedicated public servant. I will let him set the time frame. 
But I am absolutely convinced, if he doesn't get results, the 
kind of results he wants shortly, he will replace it. But I 
will leave it up to him to determine what the time frame is.
    Mr. Lieberman. Yeah, I agree, Mr. Payne--and I thank you 
for the question, thank you for your leadership on this--you 
know, the time has passed.
    I mean, God forbid--take a look at this scenario on page 
1--that there is a bioterrorist attack in an urban area where 
BioWatch exists but it doesn't function. Boy, think about what 
it going to happen as people look back and say, ``We had the 
technological ability. Why didn't we have it in place to warn 
us that this was happening?''
    The other thing we say here is that there ought to be more 
collaboration with the Department of Defense, which is 
naturally doing a lot of, I think, pioneering work in 
biosurveillance, bioprotection of our troops, of our personnel, 
that can be applied also to the domestic threat.
    Mr. Payne. Uh-huh. Thank you.
    Dr. Cole, it is very good to have you here from my district 
and my home town. I should have taken the train you took so I 
would have been on time.
    Mr. Cole. Well, I was coming in yesterday as you and the 
President----
    Mr. Payne. Oh.
    Mr. Cole [continuing]. Were going the other way, so----
    Mr. Payne. Okay.
    Let me ask you--you know, everyone here agrees that the 
Federal biodefense activities are fragmented and poorly 
coordinated. Can you talk about the impact that the lack of 
coordination has on hospitals as they prepare for a response to 
biological events?
    Mr. Cole. Well, when you say ``coordination,'' definitely 
in Newark, for example, hospitals do coordinate. But not all 
hospitals are the same in terms of capability. University 
Hospital is what is known as a Level I trauma center.
    Mr. Payne. Right.
    Mr. Cole. They can deal with virtually--or at least try to 
deal with virtually any form of trauma, from burns right 
through broken bones. Some of the other hospitals are not as 
well-equipped. In fact, some of them have departments that are 
superior.
    One of the benefits of coordination, which is what they do 
ideally when they are faced with a situation with somebody who 
needs special treatment, is quickly to send or make sure that 
that patient will go to the appropriate hospital. I can't speak 
to the National scene. I assume this is so in communities, 
urban communities in particular, where there are multiple 
numbers of hospitals.
    So coordination for some things, done properly. There is 
less, I think, of a coordinated response or a strategic 
response, even from hospitals in similar areas, when it comes 
to bioterrorism or other forms of terror drills.
    Mr. Payne. Okay.
    I will yield back.
    Ms. McSally. Thank you.
    The gentleman yields back.
    The Chair now recognizes Mr. Donovan from New York for 5 
minutes.
    Mr. Donovan. Thank you, Madam Chairman.
    Thank you to our witnesses for coming today.
    In the 14 years since 9/11, the threat facing this country 
from terrorist networks has evolved, but it has not abated. 
This committee has taken note of the shift from centrally-
planned, mass-casualty attacks to the seemingly random, 
disconnected plots hatched by lone-wolf terrorists, many of 
whom radicalize on the internet.
    Just yesterday, Chairman McCaul released the committee's 
monthly Terror Snapshot, which notes that the FBI has initiated 
more than 900 investigations into home-grown extremists, with 
60 arrests this year alone.
    Sadly, New York City remains the top target of terrorist 
networks across the world. Commissioner Bratton of the New York 
Police Department has stated that the current threat 
environment facing our city is as complex and elevated as it 
has ever been.
    Given these facts, I want to thank you for focusing this 
past year on the specific threat from bioterrorism.
    Whatever agent is used, a bioterrorist attack is exactly 
the type of mass-casualty event that would shut down a city 
such as New York and have untold costs, both economically and 
in human life. For my part, it is hard to imagine a target more 
difficult and yet more important to protect than New York 
City's transit system, which moves nearly 8 million people per 
day in and out of the metropolitan area.
    In regard to a 1995 sarin attack on the subway in Tokyo, 
which killed 12 people and injured hundreds, I would like to 
ask the witnesses: In the context of today's terrorist threats, 
how difficult is it for a home-grown radical who may be 
physically disconnected from a wider terrorist network to 
acquire materials and train for such a similar attack?
    Mr. Lieberman. Well, it is not easy, unless that individual 
happens to bring an expertise with them. Of course, that 
happens. They may work in this field and know enough to 
construct--but it is definitely within the range of the 
possible.
    Of course, there you had a group of people, in Tokyo, who 
had enough knowledge. You know, these weren't PhDs, but they 
had enough knowledge to put together the biological weapons and 
carry out--or I guess it was chemical, in that case--and carry 
out a very severe attack.
    So you are right to be concerned about the safety of the 
subway system in the greater New York area, the transit system. 
Obviously, NYPD, et cetera, cooperating with Federal and State 
authorities, has one of the best counterterrorist operations, 
maybe the best, in the country.
    Mr. Ridge. I think there is another dimension to your 
question, as well, and it goes to our concern about the absence 
of follow-on surveillance technology, not only BioWatch but 
writ large. I mean, I remember BioWatch being implemented over 
10 years ago. It is labor-intensive. It takes quite a bit of 
time for the lab analysis to be complete, even though they are 
into BioWatch 2.0.
    So it is not just a Federal program, but we need to get 
about the business of the developing surveillance and detection 
technologies that have application in the private sector. One 
would have thought, post-anthrax, that there would be a more 
aggressive posture, even with DHS or elsewhere, to engage the 
private sector to respond to this need.
    So, while I think it is difficult, as Senator Lieberman 
pointed out, for a lone wolf to access the kind of contagion 
you talk about, it is still a possibility. But, again, we are 
talking about preemption. We are talking about identifying the 
risk as quickly as possible and being prepared to respond and 
recover from it. We don't have that capability in our public 
transit systems.
    Again, if you had a coordinated blueprint for biodefense, 
engaged both with the public and private sector, it would seem 
to me that would be a very significant, very high priority.
    Mr. Donovan. Thank you, Secretary.
    Senator, you hit on something about New York City's 
capabilities. I suspect during your studies you looked at local 
law enforcement's efforts and coordination with our Federal 
efforts. Are there any cities besides New York that you have 
seen that should be replicated elsewhere that are doing a very 
good job at this?
    Mr. Lieberman. I am sure there are, Congressman, but I 
can't think of any that we came across in our studies. I don't 
know if Governor Ridge can remember any. I mean, New York has 
set the standard post-9/11, for obvious reasons, and continues, 
I think, to do that.
    Mr. Ridge. New York is platinum.
    Mr. Lieberman. Yeah.
    Mr. Ridge. It is not gold; it is platinum.
    Mr. Lieberman. Yeah.
    Mr. Donovan. Commissioner Bratton is going to be very 
pleased to hear that.
    Mr. Lieberman. Yeah. You know, obviously, Ray Kelly, before 
him, also contributed strong leadership, which Commissioner 
Bratton has carried on.
    So that is a general counterterrorism program--awareness, 
local intelligence coordinating with Federal, raising our 
defenses.
    One of the things we concluded is that there is not enough 
Federal-State-local coordination on the specific threat of 
bioterrorism. It is so different. You can't see it, as somebody 
said. The technology and the medical countermeasures are not 
where they need to be. So this continues, even in New York, to 
need more work.
    Mr. Donovan. Thank you very much, gentlemen.
    I yield back, Madam Chairman.
    Ms. McSally. Great. Thank you.
    The Chair now--I will recognize myself for 5 minutes.
    Thank you, gentlemen, for all your hard work, your service 
to our country and during a long but very important hearing 
today.
    I represent southern Arizona, and I have spent a lot of 
time doing ride-alongs with emergency responders, fire 
departments, police. Especially in my role as the Chair of the 
Emergency Preparedness, Response, and Communications, we have 
had hearings on the threat of bioterrorism, chemical terrorism.
    I am always wanting to make sure--I was in the military--it 
is not just the Pentagon who understands what is going on, but 
the troops out in the field, to use an analogy, that they know 
what the plan is and they are ready for it.
    So, as I ask them, you know, ``What if there is a bio 
event? You are the first people that are going to be out there. 
Do you know, you know, how you are going to detect it? Do you 
know how you are going to respond to it?'' Oftentimes, the 
answer is, like, ``Well, somebody else is going to tell us. We 
are going to get some intelligence.'' They are going to be the 
first ones out there responding to that, you know. So I am 
certainly concerned about that.
    Two of the bills that I have been able to pass this year 
through the House are related to this issue, some you have 
identified in your recommendations, about increasing intel and 
information-sharing down to the State and local level. Then one 
that was passed yesterday was related to fusion centers, 
potentially increasing the number of State and local law 
enforcement, first responders, that have security clearances so 
that they can have that information.
    Because if they don't have it down on the front lines, then 
there is just going to be chaos. No plan inside the Beltway is 
going to survive first contact with the enemy. So we really 
want to make sure that those emergency responders have what 
they need to know what is out there, to not just be driving 
into some sort of event that they think is naturally-occurring, 
to be protected themselves, and then to be able to respond.
    You mentioned this a lot in your recommendations, but I 
would like just some additional comments and perspectives on 
what else can we do, chipping away at this issue, to make sure 
that the first responders have what they need, intel- and 
information-sharing-wise and response.
    Mr. Ridge. Madam Chairman, I think you have raised a 
relevant issue across the Government as it relates to threat 
information writ large. I think a lot of this information, 
based on my own experience, is over-classified.
    Ms. McSally. Yeah.
    Mr. Ridge. I think it is over-classified because there is 
an institutional reluctance to share. It is reflective of a 
siloed mindset----
    Ms. McSally. Right.
    Mr. Ridge [continuing]. And if you own the information, it 
is question of authority. It might be of jurisdiction. It might 
also be a question of the dollars, I don't know.
    So one of things I think we need to do as we take a look at 
just the biological threat, if we can beef up the capacity with 
the DNI--because, right now, biological threat information is 
almost an adjunct; there is not a real specific directorate 
within DNI to focus on that--and be sensible and thoughtful in 
sharing it to those first responders who will be at the scene.
    I am quite convinced, and somebody has to, frankly, go the 
other way in terms of convincing me that I am wrong and my feet 
aren't locked in the concrete, but much of the information with 
regard to biological threats can be de-classified and shared 
with people and organizations in order for them to prepare for 
that possibility.
    There is a failure of imagination to suggest it can't 
happen. It is a failure of leadership to prepare people with 
the information needed to protect their constituencies and 
their communities if it does.
    Ms. McSally. Great. Thanks.
    Mr. Lieberman. I will just add briefly that--first, thanks 
for the legislation you brought forth. It actually anticipates 
and kind-of gets ahead of a series of recommendations we make 
in block 16 of our report, DNI.
    Local police departments need not only intelligence--they 
really do that--but they need the ability to analyze a 
potential biological----
    Ms. McSally. Right.
    Mr. Lieberman [continuing]. Attack as it is happening. They 
don't have that now. They are only going to get it if, not only 
the DNI, but the Justice Department assists them in putting 
that together.
    Ms. McSally. Great. Thanks.
    We had a hearing on this issue, and one of our testimonies 
was from someone from the New York City Department of Health 
and Mental Hygiene. They mentioned that, during a recent 
anthrax response exercise, New York City had its medical 
countermeasures dispensing capability up and running for 4 
hours before the countermeasures actually showed up.
    So they had this system up and running--you said it is a 
platinum capability--but the countermeasure didn't show up. I 
was surprised that one of my more rural fire departments, they 
said, ``Yeah, that door over there is a CDC stockpile. We have 
it right here, you know, in southern Arizona.''
    So what is it that CDC needs to be doing better in order to 
be able to respond quicker with getting the countermeasures out 
there, especially if you have the system set up but they just 
can't disburse them fast enough?
    Mr. Lieberman. Well, this is, again, recommendation 23, 
thank gosh. But, you know, allow for forward deployment, we 
say, of Strategic National Stockpile assets.
    I mean, this is pretty logical stuff. You don't want to 
keep it--these attacks are not going to happen--some may happen 
in Washington, but, ultimately, they are going to strike out 
across America. If you have to try to get the stuff that you 
need to prevent expansion or treat people who have been hit, it 
is just like--it is a war, it is military, and we pre-stage 
military equipment around the world so it is there for us. That 
is one of the things that we recommended----
    Ms. McSally. Great. Thank you.
    Mr. Lieberman [continuing]. Here. I agree.
    Ms. McSally. Secretary Ridge, did you want to add to that?
    Mr. Ridge. Just briefly. I think one of the things we have 
encouraged at CDC, to piggyback on the Senator's comments, is 
forward-deploy the capabilities that you have.
    I know, years ago, when we ran some exercises, TOPOFF 3, 4, 
5--I forget the numbers--it was clear that one of the big 
challenges we have in response to a terrorist attack, whether 
it is kinetic or biological, is that we are still not as 
prepared to respond as quickly as possible.
    To that end, to your earlier question, you need information 
as to the nature of the threat, to be prepared for it, and, 
when it comes to biological, have the countermeasures 
available, which right now are virtually nonexistent.
    Ms. McSally. Right.
    Mr. Ridge. So we may have a distribution plan to deal with 
this particular pathogen, but, frankly, we don't have the MCMs 
to distribute.
    Ms. McSally. Right.
    Mr. Ridge. That is why, when we pulled the blueprint 
together, we see these are interconnected, independent 
recommendations.
    Ms. McSally. Great. Thank you.
    My time has expired, but I will just have one final 
comment.
    I was glad to see you recommend greater cooperation between 
the DOD for civil-military cooperation. I, myself, have had all 
the anthrax vaccines and smallpox and all that prior to my 
deployments, and I know, I mean, we are dialed in and dealing 
with that every day.
    So I definitely want to work more--I am on the Armed 
Services Committee, as well--to see how we can bring some of 
those recommendations to bear so they are not reinventing the 
wheel but actually bringing best practices out to the civilian 
community.
    Mr. Lieberman. That is very important.
    If I may, Dr. Cole's recommendation earlier about better 
training of health personnel around the country is critically 
important. People are going to get sick, as they did with some 
of the anthrax, about which he wrote a book. They are going to 
go to the doctor; the doctor or the nurse may not realize that 
this is anthrax.
    Ms. McSally. Right. Exactly.
    Okay. Totally, time has expired.
    So the Chair now recognizes Mr. Perry of Pennsylvania.
    Mr. Perry. Thank you, Madam Chair.
    Gentlemen, thank you very much for your service.
    Secretary, great to see you again.
    Senator.
    Dr. Cole.
    We have the political, the policy, and the technical 
expertise at the table here. Unfortunately, I think we have a 
lot of answers, but I would agree with the gentleman from 
Florida, who we look a lot alike, that we fail to execute.
    I have a couple of particular questions and maybe something 
from about a 30,000-foot view.
    The President, I think, appoints about 50 people with some 
biodefense responsibility, somewhere around 50. I am wondering 
if, in your study, you saw any duplication and you would like 
to enumerate on that at all.
    Mr. Lieberman. I mean, yes. It is startling when you think 
about it: 50 political appointees, Presidential appointees. 
This has accumulated over a long time. They just bump into each 
other. It is just not necessary.
    That is the kind of--a real overview by Congress or by 
Federal leadership, like the Vice President, I think would turn 
that up. You would save some money and probably have the 
operation run better, have it better implemented, if you would 
eliminate some of those political appointees.
    Mr. Perry. I am not looking to make it partisan or 
political. Just, with that many people and nobody coordinating 
the effort, it should be obvious to anyone that is looking that 
you are not going to come to solutions easily, right?
    Are you folks comfortable with the protocols of command and 
control and communication if an event happens? I am thinking 
about, you know, the CDC, DOD, FEMA, individual HRFs in 
individual States, PEMA from Pennsylvania, the National Guard, 
NORTHCOM.
    Are you comfortable, knowing what you know now, if an event 
were to occur, with the chain of command and with communication 
in regard to disseminating information and making sure that 
somebody is at the top, so to speak, saying, ``No, no, no, this 
isn't your jurisdiction. You go over here and do this. We need 
these people here. You stand down over here. But I need you 
from over here.''
    Is that--because I don't have a--I am not comfortable, but 
I don't know what you know. So give me your thoughts, if you 
would.
    Mr. Ridge. Well, I think your discomfort is unfortunate but 
well-placed.
    Let's just look at how we respond to Ebola as exhibit A. 
This is a pathogen that we were aware of as a potential problem 
for us 14 years ago. I believe you were here when I mentioned 
that was on the list that I saw when I got into the White 
House. It took 14 years to come up with--and, fortunately, 
there were two or three experimental countermeasures, and we 
accelerated the development of a vaccine. We blew right through 
protocol, as we needed to, given the emergency. It should not 
have been an emergency.
    But then how we coordinated public information, how we 
worked with hospitals, how we worked with the first responders, 
it was very disorganized. In spite of the well-intention of the 
President in naming a czar, czars really don't have too much 
authority to coordinate activity among the agencies that you 
are talking about.
    So your discomfort level is well-placed.
    Mr. Perry. I don't want to put words in your mouth, 
Secretary, but I saw it as somewhat ad hoc based on the 
situation on the ground. Would that be a fair assessment, from 
my standpoint?
    Mr. Ridge. Yes, sir.
    Mr. Perry. Okay.
    So you two, in particular, have been legislators. This 
seems to me, and with Mr. Clawson's, kind-of, pinpointing 
execution as an issue, this is a matter of prioritization, if 
nothing else, at the doing-business end of Government, right, 
where you are making decisions and you are making things 
happen. I just see it as a matter of priority or a lack of 
priority or will or whatever you want to call it at that level. 
I can't change that. I am sitting in the United States 
Congress, which--I am privileged and honored to be here.
    But, as legislators, how do we set the table? What can we 
do? What is our part? I mean, I see a lot of oversight and, you 
know, making sure that there is not duplication and agencies 
are focused. But we are legislators. So how do we set the 
table? How do we set the conditions, if you will, on the 
battlefield for success for the Executive, who does make it a 
priority, when that comes to----
    Mr. Lieberman. I think part of it, from my own experience 
in the Senate, is oversight and exposure when it doesn't exist.
    I can give you a quick example. We all remember how 
embarrassed we were about the failures of the Federal and State 
government, but talk about Federal, to Hurricane Katrina. We 
did an investigation of that and what happened, and then, 
working together, Senate Homeland Security and House Homeland 
Security, we passed, I think, a really strong reform bill in 
which we set out some standards. So we did pass legislation.
    One of the things that was done was that FEMA set up--I 
forget for the moment whether it is 10 or 12 regional centers 
at which every potential Governmental agency that would be 
involved in a response to a natural disaster has 
representatives, and they drill on how to respond. They have 
changed what they are drilling based on the part of the 
country. Obviously, in the Gulf Coast, it is more about 
hurricanes; maybe in some parts of Oklahoma, it is more about 
tornadoes.
    One of the really important things you mentioned we haven't 
talked about enough here is--you did, Madam Chair--is the 
importance of clear and consistent communications, which we 
didn't have in response to the Ebola crisis. Because one of the 
dangers is public panic, particularly if there is more 
contagion going on than existed in Ebola. You can get ready for 
that----
    Mr. Perry. Can I clarify, if you will indulge me, Madam 
Chair?
    But you are talking about the solutions that you folks 
rightfully enacted, seeing the problems that occurred with 
Katrina or our failure to be prepared, but----
    Mr. Lieberman. Right.
    Mr. Perry [continuing]. As you would certainly acknowledge, 
we can't wait, right? Like, we can't wait until----
    Mr. Lieberman. No.
    Mr. Perry [continuing]. This happens, right? We have to be 
proactive, because----
    Mr. Lieberman. You are absolutely----
    Mr. Perry [continuing]. Once it happens, it is too late.
    So how do we set the table? Do you have a blueprint--you 
have a blueprint there, but do you have a blueprint for 
legislation or legislative and particular oversight actions 
from the Congress in this regard right now?
    Mr. Ridge. Well, I think I have a very practical but very, 
very difficult suggestion.
    If the White House, hopefully in collaboration with the 
Congress of the United States, develops a blueprint, a 
strategic blueprint, then it will be up to the individual 
committees and committee Chairmen and Ranking Members and all 
535 men and women in both the House and the Congress to 
resist--to resist--the exhortation from Cabinet Secretaries and 
Deputy Secretaries, ``I know it was the blueprint.'' But, 
really, really, we really need to go in a different direction.
    I mean, that is a challenge--that is a working condition 
that Congress has dealt with forever. Departments and 
Secretaries and Under Secretaries and agencies have special 
relationships with the committees that oversee them. There is a 
bias based on strong professional and sometimes personal 
relationships, all well-intentioned. But the only way you get a 
blueprint, take a blueprint to execute, is if everybody buys in 
to the strategy and makes sure that the dollars go to the 
priorities established in concert with the White House and 
resisting the temptation of Cabinet Secretaries, such as Tom 
Ridge from DHS, saying, ``I understand the blueprint, but, 
really, I think we ought to be doing X, Y, Z.''
    That, institutionally, is the biggest challenge that the 
Congress has and the biggest challenge the country has in 
establishing not only a blueprint but, as your colleague said, 
executing on a game plan.
    Remember, I have been there; I have been downtown. That is 
the chemistry, that is the alchemy, that is the challenge, not 
only for this issue but across the board.
    Mr. Perry. Thank you, Madam Chair. Appreciate----
    Mr. Ridge. It is a great question.
    Mr. Perry [continuing]. Your indulgence.
    Ms. McSally. Thank you.
    I want to thank our witnesses for your--Dr. Cole, do you 
have one final word there?
    Mr. Cole. Yes. I am going to try to lighten the darkness 
about this whole subject matter by noting that a biological 
attack, a biological weapon, offers something that none of the 
other likely weapons systems do, whether explosive, chemical, 
or heavy radiological--namely, that, after exposure, after the 
event, the release event, you still have time, in many cases 
days, in some few cases weeks, during an incubation period, 
even if a person doesn't know he or she is infected.
    Vaccination, in some cases, days after an exposure, 
particularly to smallpox, can still be effective. Antibiotics, 
antivirals, other medications--that is where we ought to be 
working, on medical countermeasures.
    Four hours I think is what you mentioned. Four hours would 
not have been devastating for a lot of disease exposures. So 
that doesn't worry me as much as if it were another form of 
attack.
    So that ought to be taken into consideration, and all the 
more emphasis, then, on being able to identify whether there is 
some kind of organism in the air or in the drink or in some 
other fashion. Therefore, the front-liners for this kind of 
identification will be the medical responders, the educated 
physicians, the nurses, who will see the sick patient first and 
have a notion that, well, you know, maybe, based on my 
knowledge because of terror medicine, we ought to be 
considering this as a possible deliberate agent--deliberately-
released agent.
    Ms. McSally. Great. Thank you.
    I want to thank all of our witnesses for your work on this 
important issue, your testimony today.
    Thanks to the Members for their questions.
    Members may have some additional questions that they will 
submit in writing, and we would ask if you would be able to 
respond within 10 days. Pursuant to committee rule VII(E), the 
hearing record will be open for 10 days.
    Without objection, the committee stands adjourned.
    [Whereupon, at 12:36 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
